         Office of Inspector General
         Audit Report




Public Participation in
Louisiana’s Air Permitting Program
and EPA Oversight
Report No. 01351-2002-P-00011

August 7, 2002
Inspector General                   Central Audit and Evaluation Resource Center
   Resource Center:                   Dallas, Texas Branch Office

Region Covered:                     Region 6

Program Office Involved:            Multimedia Planning and Permitting Division

Report Contributors:                Les Partridge, Auditor
                                    Dan Howard, Auditor
                                    Gerry Snyder, Engineer
                                    Bernard Stoll, Engineer
                                    Rick Beusse, Technical Advisor
                                    Sandy Keith, Legal Advisor
                                    Randy Holthaus, Project Manager




Cover photo:   The headquarters of the Louisiana Department of Environmental Quality
               in Baton Rouge, Louisiana, from its web site.
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASH INGTON, DC 20460



                                                                                       OFFICE OF
                                                                                  INSPECTOR GENERAL




                                         August 7, 2002

MEMORANDUM

SUBJECT:            Final Report:
                    Public Participation in Louisiana’s Air Permitting Program
                    and EPA Oversight
                    Report No. 01351-2002-P-00011


FROM:               Melissa Heist
                    Assistant Inspector General for Audit

TO:                 Gregg A. Cooke
                    Region 6 Administrator

Attached is our report entitled Public Participation in Louisiana’s Air Permitting Program and
EPA Oversight, conducted as a result of an Agency request. We discussed our findings with your
staff and issued a draft report. We summarized your comments in the final report and included
your complete response in Appendix I.

This report addresses two objectives–how the Louisiana Department of Environmental Quality
(LDEQ) implemented its public participation program in the air permitting program, and the
effectiveness of Environmental Protection Agency (EPA) oversight. We are conducting
additional audit work, and plan to report at a later date, on whether LDEQ’s permits and
regulations ensure that facilities comply with the state’s and EPA’s excess emissions policy
related to emissions from upsets, malfunctions, and start-ups and shut-downs.

ACTION REQUIRED

In accordance with EPA Order 2750, you, as the action official, are required to provide this office
with a written response within 90 calendar days of the final report date. For corrective actions
planned but not completed by the response date, reference to specific milestone dates will assist
in deciding whether to close this report. Please e-mail an electronic version of your response to
holthaus.randy@epa.gov.

We have no objection to the release of this report to any member of the public. This final audit
report contains findings that the Office of Inspector General (OIG) has identified and corrective
actions OIG recommends. This audit report represents the opinion of OIG and the findings
contained in this report do not necessarily represent the final EPA position. Final determinations
on matters in this report will be made by EPA managers in accordance with established EPA
audit resolution procedures.
If you or your staff have any questions about this report, please contact Michael Rickey, Director
for Assistance Agreement Audits, at (312) 886-3037, or Randy Holthaus, Project Manager, at
(214) 665-6620.

Attachment
                    Executive Summary
Purpose
          Public participation is a critical part of the permitting process because it allows
          the public access to information on proposed environmental actions. Allowing
          and enabling citizens who live near facilities that emit pollutants to review and
          comment on proposed permits should result in more complete and enforceable
          permits, improved compliance, and cleaner air. Under Title V of the Clean Air
          Act, major sources of air pollutant emissions must obtain source-specific permits,
          and permitting agencies must provide an opportunity for the public to review and
          comment on facilities’ proposed operations. Based on an Agency request to
          review the public participation process in Louisiana, which is covered by the
          Environmental Protection Agency’s (EPA) Region 6, we performed a review of
          the Louisiana Department of Environmental Quality’s (LDEQ) Title V program.
          Our specific objectives were to answer the following questions:

          C   Does LDEQ allow for effective public participation in the implementation of
              its air permitting process?
          C   Does EPA Region 6 provide effective oversight of LDEQ’s air permitting
              program?

Results in Brief
          Although LDEQ met the public participation requirements for air permitting, its
          process could be improved. LDEQ’s records were often unorganized, incomplete,
          missing, or inaccessible. LDEQ also did not clearly define the role of its public
          participation group, and it issued multiple permits to facilities without providing
          the public with complete information. As a result, the public was unable to, or
          had difficulty in, accessing key records needed to effectively review, evaluate, and
          comment on facilities’ proposed operations, thus hindering the public’s ability to
          effectively comment on proposed permits. Improvements would provide for a
          more effective process and help address the perception among citizens that
          industry in Louisiana has an unfair advantage during the permitting process.

          Also, EPA Region 6 did not perform adequate oversight of LDEQ’s public
          participation activities. Region 6 generally did not review public comments
          before LDEQ issued permits because the Region did not require LDEQ to provide
          such comments to the Region until after the permit was already issued. Region 6
          also did not take a proactive approach to oversight of public participation issues,

                                            i
        or perform a thorough on-site review at LDEQ. In some instances, Region 6
        negotiated commitments with LDEQ, yet allowed the state to miss agreed upon
        deadlines and commitments.

        In addition, we noted two issues that, while not directly impacting our objectives,
        nonetheless should receive EPA Region 6 attention: (1) LDEQ’s Title V air
        permit backlog of unissued permits is large and continues to grow; and (2) Region
        6 has not performed an audit of LDEQ’s permit fees used by the state to fund
        implementation of its program.

        We are not reporting at this time on one of our original objectives: “Does LDEQ
        write effective permits and regulations to ensure that facilities comply with the
        state’s and EPA’s excess emissions policy related to emissions from upsets,
        malfunctions, and start-up/shut-down?” We are conducting additional audit work
        in this area.

Recommendations
        We recommend that the EPA Region 6 Administrator work with LDEQ to make
        the public participation process for air permits more effective, with emphasis on
        such areas as records completeness and accessibility, clarification of roles, and
        improving outreach. We also recommend that the Region 6 Administrator require
        staff to review public participation issues, define responsibilities within the
        Region, perform a thorough on-site review of LDEQ’s air permits program,
        establish a tracking mechanism for permits reviewed, and review the required
        number of LDEQ’s proposed Title V permits prior to LDEQ issuance of final
        permits.

Agency and State Comments and OIG Evaluation
        Region 6 generally agreed with the findings and recommendations. The Region
        provided comments to clarify portions of the report, and we have incorporated
        these comments and modified the report as appropriate. We have summarized the
        Region’s comments following each chapter and have included the complete
        response in Appendix I.

        Louisiana generally did not agree with our findings and recommendations. We
        reviewed the comments and have modified the report as appropriate. Their
        complete response can be found in Appendix II.




                                         ii
                                     Table of Contents

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



 Chapters

          1         Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     1
                         Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   1
                         Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      1
                         Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             4

          2         LDEQ’s Public Participation Process Needs Improvement . . . . . . . . . . .                                        5

          3         Region 6 Oversight Needs Improvement . . . . . . . . . . . . . . . . . . . . . . . . . . 15

          4         Other Matters . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21




 Exhibits
          A         Background on the Clean Air Act Title V Program . . . . . . . . . . . . . . . . . . 24

          B         Details on Scope, Methodology, and Prior Audit Coverage . . . . . . . . . . . 28



 Appendices

          1         EPA Region 6 Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32

          2         Louisiana Department of Environmental Quality Response . . . . . . . . . . . . 51

          3         Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 70




                                                                   iii
                                Chapter 1
                                 Introduction
Purpose
          Public participation is a critical part of the permitting process because it allows
          the public access to information concerning proposed environmental actions.
          Allowing and enabling citizens who live near facilities that emit pollutants to
          review and comment on proposed permits should result in more complete and
          enforceable permits, which in turn should result in improved compliance and
          cleaner air. Under Title V of the Clean Air Act, major stationary sources of
          pollution emissions (see Exhibit A for definition) must obtain source-specific
          permits, and permitting agencies must provide an opportunity for the public to
          review, evaluate, and comment on facilities’ proposed operations. Title V sources
          are generally recognized as the most environmentally significant air pollution
          sources that the Environmental Protection Agency (EPA) regulates.

          Based on an Agency request to review Louisiana’s public participation process,
          the Office of Inspector General (OIG) performed a review of the Louisiana
          Department of Environmental Quality’s (LDEQ) Title V air permitting program
          including EPA’s oversight of Louisiana’s program. The purpose of this audit was
          to answer the following questions:

          •   Does LDEQ allow for effective public participation in the implementation of
              its air permitting process?

          •   Does EPA Region 6 provide effective oversight of LDEQ’s air permitting
              program?

Background
          Clean Air Act and Title V

          Clean Air and Quality Environmental Information, including the public’s right to
          know, are 2 of EPA’s 10 strategic goals designed to protect human health and the
          environment. In addition to research and standard setting, the Clean Air goal
          envisions adequate implementation by state and local agencies, appropriate
          oversight by EPA, and public involvement in the operational decisions that impact
          whether the air in every American community will be safe and healthy to breathe.
          Despite great progress, EPA’s Strategic Plan notes air pollution continues to be a
          widespread human health and environmental problem in the United States. The
          Public’s Right to Know goal includes providing the public with access to accurate
          and reliable environmental information so that they can influence regulators’

                                           1
decisions and make more informed decisions to help protect their families and
communities.

Congress’ main goal in adopting the Title V program was to achieve a broad-
based tool to aid effective implementation of the Clean Air Act and enhance
enforcement. Title V requires operating permits for every major source of a
regulated air pollutant. Each Title V operating permit is supposed to reduce
source violations, improve regulatory agency enforcement abilities, establish site-
specific monitoring requirements, increase source accountability, and ensure
adequate public involvement in the permitting process.

EPA authorized Louisiana’s Title V program effective October 12, 1995. EPA
gives the authority to states to execute various environmental programs, including
the Title V air program, when EPA determines that the state has shown the
capability and commitment to do so. EPA Region 6 has authorized each of its
five states (Arkansas, Louisiana, New Mexico, Oklahoma, and Texas) to carry out
the air program. EPA’s Office of Air and Radiation is responsible for establishing
national air objectives and providing guidance and direction to the Regional
offices in their role of providing oversight of delegated programs to states.

More details on the Title V program, including definition of major sources, are in
Exhibit A.

Louisiana Economy and Industry

Louisiana is one of the most
heavily industrialized states
in the nation, and is the
second largest refiner of
petroleum in the United
States. Louisiana’s
petrochemical industry
manufactures one-quarter of
America's petrochemicals,
including basic chemicals,
plastics, and fertilizers. As
shown in the following three
charts, based on EPA’s
Toxic Release Inventory data from 1999, Louisiana is the highest in Region 6 in
toxic air emissions per person (9th nationally); highest in Region 6 in toxic air
emissions per square mile (15th nationally); and second highest in total toxic air
emissions in Region 6 (14th nationally).




                                 2
    Environmental and Health Issues

    In passing the 1990 Act, Congress established different, and more stringent, levels
    of non-attainment for different pollutants of concern. For example, for an area
    that does not meet air quality standards for ozone, EPA assigns one of five
    “non-attainment” levels: marginal, moderate, serious, severe, and extreme.
    Louisiana has one non-attainment area. Baton Rouge and the five surrounding
    parishes are identified as a “serious” non-attainment area for ozone. This area is
    in jeopardy of being redesignated to “severe” non-attainment,1 the second worst
    level. Additional restrictions and sanctions are required to be imposed on
    businesses and motorists that operate within a severe non-attainment zone. For
    example, businesses may have to reduce emissions dramatically, motor vehicles
    could be subject to more extensive emissions inspections, and motorists could be
    required to use cleaner fuel.

    According to The Plain English Guide To The Clean Air Act, published by EPA in
    1993, air pollution can cause burning eyes and nose and an itchy, irritated throat,

1
    This “severe” redesignation is for the 1-hour (.12) ozone standard based on 3 years of ambient
    monitoring data showing exceedances.

                                           3
        as well as trouble breathing. Some chemicals in polluted air cause cancer, birth
        defects, brain and nerve damage, and long-term injury to lungs and breathing
        passages, and reproductive systems. Some air pollutants are so dangerous that
        accidental releases can cause serious injury or even death. The health effects of
        ground-level ozone include respiratory (breathing) problems, reduced lung
        function, asthma, irritated eyes, stuffy nose, reduced resistance to colds and other
        infections, and accelerated aging of lung tissue. The health effects of volatile
        organic compounds, one of the precursor components in the formation of ozone,
        include cancer and other serious health problems.


Scope and Methodology
        To address the effectiveness of public participation and EPA’s oversight of
        LDEQ’s permitting process, we focused our audit work on the Title V air
        permitting process. We performed our audit in accordance with the Government
        Auditing Standards, issued by the Comptroller General of the United States. We
        conducted our fieldwork from April 2001 to January 2002, primarily at LDEQ in
        Baton Rouge, Louisiana. We reviewed EPA Regional oversight issues primarily
        at Region 6 Headquarters in Dallas, Texas. See Exhibit B for further details on
        the scope and methodology used, including prior audit coverage related to this
        subject.

        As part of our audit, we were requested to answer the question, “Does LDEQ
        write effective permits and regulations to ensure that facilities comply with the
        state’s and EPA’s excess emissions policy related to emissions from upsets,
        malfunctions, and start-up/shut-down?” We are planning to conduct additional
        audit work in this area, which we plan to report on separately.




                                          4
                                  Chapter 2
             LDEQ’s Public Participation Process
                    Needs Improvement
         Although LDEQ met the public participation requirements for air permitting, its
         process could be more effective. According to EPA, an effective process enables
         citizens to gather relevant information related to proposed permits and aids them
         in making informed judgments about environmental issues in their locality.
         However, public participation was often hampered because LDEQ’s records were
         often unorganized, incomplete, missing, or inaccessible. LDEQ also did not
         clearly define the role of its public participation group or emphasize the public
         participation function. Further, LDEQ issued multiple permits to facilities
         without providing the public with complete information. As a result, the public
         was unable to, or had difficulty in, accessing complete records needed to
         effectively review, evaluate, and comment on issues. This hinders the public’s
         ability to effectively comment on proposed permit conditions. Improvements in
         these and other areas would provide for a more effective process and help address
         the perception among citizens that industry in Louisiana has an unfair advantage
         during the permitting process.

EPA Has Identified Best Practices and Core Values
         According to EPA’s August 2000 Reference Guide, Public Involvement in
         Environmental Permits, states should develop a public involvement plan to
         identify the public’s concerns, and use existing regulatory requirements as a
         framework for meaningful public input in permitting decisions. EPA’s guide also
         pulls together some of the best practices that EPA has observed. The guide is
         intended to help state permitting program staff build an effective public
         involvement plan. In addition to suggesting best practices, EPA’s Reference
         Guide calls for regulatory programs, such as Title V, to follow the National
         Environmental Justice Advisory Council’s 2 core values as part of a model public
         involvement plan. Among these core values are that the public participation
         process:

         •    provides participants with the information they need to participate in a
              meaningful way.
         •    includes the promise that the public’s contribution will influence the decision.

         •    seeks out and facilitates the involvement of those potentially affected.

    2
         The National Environmental Justice Advisory Council is a federal advisory committee established
         in 1993 to provide indep endent advice, consultation, and recommendations to E PA on matters
         related to environm ental justice .

                                               5
LDEQ Met Public Participation R equirem ents
         LDEQ met the public participation requirements identified in 40 Code of Federal
         Regulations (CFR) Part 70, which implements Title V of the Clean Air Act.
         EPA’s Reference Guide summarizes EPA statutory authorities, regulations, and
         guidance materials related to public involvement. All Part 70 programs provide
         the following seven specific opportunities for public involvement:

          •   Public Notice                      • Statements of Basis
          •   Public Comment Periods             • Contact Persons
          •   Response to Comments               • Petitions to the EPA Administrator
          •   Mailing Lists                        to object to a permit

         We did not identify any systemic problems with LDEQ’s handling of these basic
         actions. For example, LDEQ issued public notices containing the required
         elements, such as the name and address of the facility and the time and place of
         any scheduled hearings. LDEQ also developed and maintained mailing lists of
         individuals and organizations interested in its activities. Further, LDEQ provided
         30 days advance notice prior to holding public hearings.

Records Management at LDEQ Needs Improvement
         While LDEQ met public participation requirements in 40 CFR Part 70, its process
         could be more effective. Records management at LDEQ needs improvement so
         that the public is given a better opportunity to comment on draft permits, monitor
         whether facilities are meeting emission limits and other requirements, and
         challenge permit decisions if they believe they are in error. However, the Clean
         Air Act requires agencies to establish public records (permit files) that include
         certain information relevant to the permitting decisions. Because LDEQ’s files
         and records were often unorganized, incomplete, missing, or inaccessible, the
         public’s ability to comment on permits, monitor facility actions, and challenge
         LDEQ decisions was restricted. Also, LDEQ’s records indexing system was
         confusing. Details on these issues follow.

         LDEQ Files Were Unorganized, Incomplete, Missing, or Inaccessible

         We often had difficulty locating permit documents and files, and LDEQ staff had
         the same difficulties. When files were provided to us, they were often
         unorganized or incomplete. LDEQ air permit files were filed first by parish rather
         than facility. Permits, applications, correspondence, engineering reports, and
         enforcement actions were filed in random order within folders. Researching files
         was so difficult that it was necessary for us to ask for the services of an LDEQ
         employee to locate the sampled files we needed to review. The lack of organized
         and complete files was also a common complaint made by environmental groups

                                          6
and individuals. A representative of the Tulane Environmental Law Clinic filed a
written complaint that she had to make four separate trips from New Orleans to
LDEQ in Baton Rouge to obtain all the documentation she requested for a facility.
LDEQ has acknowledged that there were differences in the structure of the files,
noting in some cases all documents were kept in one facility folder while in others
the permit was kept in a facility folder and inspections in a separate facility folder.
LDEQ has stated that it is in the process of correcting these issues.

Several times when we went to LDEQ’s file room during advertised normal
operating hours, no one was present to assist us. Similar complaints were made
by environmental groups and the Tulane Environmental Law Clinic. LDEQ’s
former Assistant Secretary for Environmental Services and the Administrator of
the Permits Division said they were aware of problems in the operation of the file
room and attempts were being made to fix them. Also, LDEQ could provide
greater accessibility by placing public records on the LDEQ website. Although
the Permits Administrator said LDEQ was moving toward placing proposed
permits on its website, LDEQ had not started the process.

LDEQ’s Records Numbering System Confusing

LDEQ’s records numbering system was confusing. LDEQ used four different
ways to identify the same information for each facility: (1) facility name;
(2) permit number; (3) tracker number; and (4) Agency Interest number. For
example, documents pertaining to Dow Chemical Company’s facility in
Plaquemine – including permits, applications, correspondence, engineering
reports, and enforcement actions – were filed, respectively, by: Dow Chemical;
2008-V1; 28823; or 1409. The Agency Interest number was the one number that
remained constant by company. For example, if Dow had three permits at the
same facility, all documents pertaining to that facility would have the same
Agency Interest number (1409) but different tracker and permit numbers.

LDEQ acknowledged that its file numbering system was confusing, and stated
LDEQ’s data system (“Tool for Environmental Management and Protection
Organizations”) should correct this problem by assigning one number to each
facility. LDEQ also stated that it is in the process of bringing together several
different filing systems that had little, if any, references in common.

Key Document for One Permit Not Available for Public Review

LDEQ did not always provide relevant permit documents to libraries for public
review prior to hearings. For three permits, we visited Louisiana public libraries
the day of public hearings to review the permit materials provided in advance for
public review. For one permit, although LDEQ staff had provided the proposed
permit, a key engineering study was not at the library for public review. The study
provided methods and calculations for the reduction of pollutants, which would
have better informed the public about emissions in the proposed permit.

                                   7
        According to Region 6, although it is not required, it is desirable to have all
        supporting information available at all document repositories.

Improvements Needed in the Hearing Process
        LDEQ needs to improve its hearing process to ensure hearings are conducted
        without bias. Although public hearings were generally conducted properly, there
        is room for improvement. During the four public hearings we attended, LDEQ
        attorneys – acting as the hearing officers – appeared to be unbiased and conducted
        the hearings according to LDEQ policy. However, at one of the four hearings, we
        observed inappropriate behavior by two other LDEQ employees, both of whom
        appeared to be openly supportive of the company requesting the permit action (see
        example in the accompanying box).

        According to the National Environmental Justice Advisory Council’s core values,
                                                                public participation must
                Example of Potential Appearance of Bias         include the promise that the
           One of the LDEQ employees previously worked for
                                                                public’s contribution will
           the company for about 15 years. Before the           influence the decision. When
           hearing started, and while citizens could have been  LDEQ officials act at a public
           observing, this employee talked with the company’s
           representatives in an overly friendly manner, giving hearing in a way that appears to
           the appearance of possible favoritism. During the    indicate a bias toward
           hearing, while several people stood up to speak
           against the proposed permit, this LDEQ employee
                                                                industry, members of the public
           paced the room. In our opinion, the employee         may be intimidated from
           appeared impatient and agitated. At one point,       expressing their opinions, and
           when a citizen stood up to voice concern over the
           proposed permit, this LDEQ employee walked           may believe that their
           across the room so that he could stand near that     contribution will have no
           citizen, and appeared to stare at her in an          influence on decisions. LDEQ’s
           unfriendly manner. In addition, another LDEQ
           employee – the permit writer – appeared to indicate  policy for “Conducting Public
           agreement, both verbally and by clapping, with       Hearings,” dated October 1997,
           those who spoke in favor of the permit.
                                                                does not state that LDEQ
                                                                employees should refrain from
                                                                situations where they are biased
                                                                or behave in a manner that
        creates the appearance of bias, and such clarification is needed. Federal
        regulations (5 CFR Part 2635) require that federal employees recuse themselves
        from any situations where there is a potential for, or even the appearance of, a
        conflict of interest.

LDEQ Needs to Track Hearings Requested
        LDEQ needs to track hearings requested as well as held. LDEQ documented the
        number of public hearings it held, and indicated it held 99 public hearings on
        Title V permits from July 1995 through April 2002. However, LDEQ did not
        track the number of hearings requested by the public, an important factor in


                                           8
         assessing the effectiveness of LDEQ’s public participation efforts. As a result,
         LDEQ could not tell us how many hearing requests had been denied.

Public Participation Not Clearly and Sufficiently Emphasized
         Public participation roles and responsibilities within LDEQ were not clearly
         defined or sufficiently emphasized. Clearly defined roles and responsibilities are
         necessary for any organization to be efficient and effective. However, there
         appeared to be a disconnect
         between the public                         Example of Disconnect Within LDEQ
         participation section, permit
                                             L LDEQ’s public participation section
         writers, and the LDEQ Permits           maintained a database of public comments
         Administrator in addressing             made at hearings, but it was only used to track
         citizen comments, as shown in           “inputs”– to count how many comments were
                                                 received. The public participation section did not
         the accompanying example.               know how the comments were addressed, if at
                                                    all. They tracked only those comments sent to
                                                    LDEQ in writing as a result of hearings, and did
         LDEQ management also has                   not track oral comments.
         not stressed the importance of
         the role the public participation    L Permit writers, who are responsible for
                                                  responding to comments, did not use the
         section could perform. The               tracking database. Instead, permit writers
         group generally had five or six          responded to comm enters separately.
         people at any given time, and
                                              L The Permits Administrator was unaware that
         the tasks they performed were            the database existed until we informed him. We
         administrative in nature, not            also told the Administrator that the database was
                                                  incomplete and not used by the permit writers.
         substantive public relations             Subsequently, he told the public participation
         activities. For example, they            section employee who maintained the database
         scheduled hearing dates and              to stop maintaining it.
         locations, set up tables before
         hearings, maintained sign-in
         sheets, and distributed
         information at the hearings. This group did not do any outreach to citizen groups,
         even though such efforts could not only better inform the public but could build a
         better relationship that could foster greater public confidence in LDEQ.

         According to EPA’s Reference Guide, LDEQ’s public participation group could
         facilitate public involvement by using some additional tools that are not required
         by regulation. For example:

         •   LDEQ could help disseminate information about a facility or permit to
             interested citizens by providing briefings, arranging presentations by
             independent technical experts, or arranging facility tours.

         •   LDEQ could solicit the views and opinions from members of the community
             regarding permit applications and provide forums for discussion between all
             interested parties regarding a permit application.


                                             9
         •   LDEQ could solicit citizen input by conducting surveys and telephone polls,
             discussing issues with focus groups, or holding semiannual “open house”
             sessions with the public.

         We were not aware of LDEQ performing any of these activities. As noted, the
         National Environmental Justice Advisory Council’s core values state the public
         participation process must seek out and facilitate the involvement of those
         potentially affected.

LDEQ Issued Multiple Permits Without
Providing Co mplete Inform ation to Public
         When proposing a permit, LDEQ did not provide the public with a clear picture of
         all air pollution activities at a given facility. Specifically, LDEQ issued multiple
         permits to the same facility, but did not clearly identify in operating permits and
         permit notices the total number of permits issued to a particular facility nor the
         total criteria and toxic air pollutant emissions permitted for each facility. Not
         having complete information on a facility hampers the public’s ability to
         effectively comment on proposed permit conditions. When Congress passed the
         Clean Air Act amendments in 1990, the goal of the Title V program was to
         consolidate all air pollution control requirements into a single, comprehensive
         operating permit that covers all aspects of an emission source’s air pollution
         activities. This improves the
         public’s ability to know what
                                                  Example of Single Facility With Multiple Permits
         requirements the facility is
         subject to and its compliance           The Exxon Mobil facility in Baton Rouge has received
                                                 13 Title V permits and 42 more are pending issuance
         status. The practice of not             – a total of 55 Title V permits for one facility. None of
         identifying the total number of         13 issued or 42 pending permits refer to, or provide
         permits or emissions does not           information on, the emissions for any of the other 54
                                                 permits. This reference to the other permits should
         provide the public with the             aggregate all permitting actions and emissions for
         necessary information to gain a         the site, such as through a table of contents. In this
                                                 case, a citizen may never realize by looking at a
         comprehensive understanding             permit that there are 54 other Title V permits that
         of how a facility operates.             cover the facility.
         An example is illustrated in the
         accompanying box.
         For our sample of 10 facilities,
         LDEQ had issued a total of 61 Title V permits, an average of over 6 per facility.
         There were only 2 facilities out of the 10 for which LDEQ had issued only 1 Title
         V permit. In addition, there were a total of 84 more Title V applications under
         review for these same 10 facilities. Therefore, there was a potential total of 145
         Title V permits being issued to these 10 facilities, an average of almost 15 permits
         per facility. Table 1 provides a breakdown.




                                               10
               Table 1: Title V Permits Issued and Under Review, By Facility


                                                                Permits
                                              Permits            Under
                 Facility                     Issued *          Review            Total

 Chevron Chemical Co., Belle Chasse                2                0                2

 Conoco, Inc., Westlake                            6                0                6

 Dow Chemical Co., Plaquemine                     14               14              28

 Exxon Mobil Co., U.S.A., Baton Rouge             13               42              55

 Marathon Ashland Petroleum, LLC,                  2                3                5
 Garyville

 Motiva Enterprises, LLC, Convent                  1                0                1

 Motiva Enterprises, LLC, Norco **                12                7              19

 Rubicon, Inc., Geismar                            3                5                8

 Tosco (BP Oil), Belle Chasse                      7               13              20

 Westlake Petrochemical, Sulphur                   1                0                1

    Total                                         61               84             145

*  Includes General and Regular Title V permits. General Title V permits cover numerous
   similar sources. Regular Title V permits cover single sources.
** Includes Motiva Norco, Shell Norco, Shell Oil (Norco), and Tejas Norco.



According to LDEQ officials, they issue multiple permits for facilities because
industry representatives requested they do so. Both LDEQ and EPA Region 6 told
us there is no prohibition against issuing multiple permits. LDEQ and industry
representatives both said it is beneficial to companies if individual processes (e.g.,
chemical process in a catalytic cracking unit) are permitted separately. LDEQ
officials believe they can more easily amend or modify individual permits, if
necessary, than one large permit. According to EPA’s Office of Air Quality
Planning and Standards, multiple permits are allowed for similar emission sources
if sufficient documentation showing all permitted activities on the site are listed
and the total emissions are combined to give a complete picture of all emissions.
According to Region 6, Louisiana and Texas are the only two states in the Region
that issue multiple permits for one facility.

Because LDEQ did not aggregate total emissions for a given site, a complete
assessment of emissions cannot be readily made. Further, having multiple permits
for a facility requires the public to search numerous files just to understand how
one permit relates to the entire facility’s emissions. As noted earlier (see page 6),
LDEQ’s files were often unorganized, incomplete, missing, or inaccessible, which



                                     11
        further reduces the chances of the public obtaining all the information needed to
        make an informed decision.

Permit Documents Need to Be Clearer
        LDEQ could ensure that permits are more clearly written to facilitate better public
        understanding. This would include defining the scope of an individual permit as
        it relates to a facility’s total number of permits and emissions. Air permits should
        be so transparent as to provide the reader with complete information about a
        facility, the processes used, the pollutants emitted, the requirements for those
        pollutants, the inspection methods, and any prior enforcement history.

        We interviewed several citizen groups, as well as a technical expert, to obtain
        their views on the readability and understandability of permits. Citizen groups –
        such as the Louisiana Environmental Action Network, the Calcasieu League for
        Environmental Action Now, Mossville Environmental Action Now, and the
        Tulane Environmental Law Clinic – told us that it is very hard to understand the
        technical processes in LDEQ permits and determine the impacts they may have on
        the environment and their communities. In addition, we contacted a California
        agency, recommended to us by Region 6 as a technical expert in the field of air
        permitting, and a senior manager for this agency also indicated the permit we
        provided for review was difficult to read (see box).


                                         California Official Confirms
                                   Difficulty in Reading Louisiana Permits

         The Senior Manager for Refineries within the California South Coast Air Quality Management
         District’s Office of Engineering and Compliance – which is responsible for all permitting of
         stationary sources in southern California – reviewed the permit materials we sent her for one
         Louisiana facility. She said the materials were difficult to read and did not go far enough in
         explaining what effects the processes would have on nearby communities and other
         members of the general public. The South Coast Air Quality Management District, the air
         pollution control agency for the four-county region including Los Angeles and Orange
         counties, covers 12,000 square miles and is home to about 14 million people.




Conclusion
        For public participation to be meaningful, citizens must have easy access to public
        records that are complete and organized. Public hearings should be conducted in
        an independent and objective manner without the appearance of bias or conflicts
        of interest. The contribution that the public can make to ensuring effective
        permits is something that LDEQ needs to emphasize in its organization. Such
        organizations should provide reasonable stewardship of the public trust. Further,
        Title V permits should be written in a way to help the citizen understand them,
        including how a given permit relates to the total emissions at a facility.


                                              12
       Improvements in these and other areas would provide for a more effective process
       and help address the perception of certain groups in Louisiana that industry has an
       unfair advantage during the permitting process.

Recommendation
       2-1    We recommend that the EPA Region 6 Administrator work with LDEQ to
              make the public participation process for air permits more effective,
              with emphasis on the:

              • Accessibility, ease of use, and understandability of permits and other
                documents made available for review or comment.

              • Number of hearings not held and the reasons for denial.

              • Need for LDEQ employees to be impartial and refrain from appearances
                of bias.

              • Clarification of the roles and responsibilities for state personnel involved
                with the public participation process.

              • Need to conduct more outreach to the public, including soliciting citizen
                input with surveys and telephone polls, discussing issues with focus
                groups, and holding semiannual “open house” sessions.

              • Need to encourage LDEQ to improve its Title V permits program by
                providing the public with a source that lists all permits for a facility and
                aggregates all permitted emissions on each individual permit.


Agency Comments and OIG Evaluation

       Region 6 generally agreed with Recommendation 2-1. The Region agreed to work
       with LDEQ on public participation issues and plans to encourage LDEQ to
       improve its process. However, the Region’s response to the recommendation
       lacked sufficient detail for us to determine specifically what actions the Region
       plans to take and by when. In its response to this report, the Region needs to
       inform OIG of the specific actions it will be taking to work with LDEQ on each of
       the matters listed in the recommendation. The Region’s response also needs to
       include specific timeframes for accomplishing these corrective actions.

       Region 6 disagreed with the portion of the recommendation that the Region
       should encourage LDEQ to list all permits for a facility and aggregate all
       permitted emissions on each individual permit. The Region stated that the
       aggregation of all permits, especially for large facilities, could discourage public

                                        13
participation by overwhelming an interested person with data. The Region further
stated that they agreed with the intent of OIG’s recommendation, but differed on
how to achieve the objective of improving the public’s understanding and
involvement. To be responsive to our recommendation, the Region, in its final
response, needs to describe in detail how it will meet the objective of ensuring
that the public understands the total amount of emissions permitted by any given
facility. The Region also needs to provide milestones for this corrective action.

OIG believes that data directly affecting the decisions of LDEQ must be available
for the public to make informed decisions on proposed permits. In discussions
with EPA’s Office of Air Quality Planning and Standards, we were told that “at a
minimum all the permits should be listed and emissions aggregated for each
permit.” Issuing multiple permits for numerous sources within one facility makes
it more difficult for citizens to make informed decisions on any one permit
submission. OIG believes that full disclosure regarding the number of permits
any one facility has already obtained should be made available to the public when
a new permit is proposed for issuance. Such full disclosure or aggregation of all
emissions for each facility would help with the understanding of the public, as
well as the LDEQ engineers writing and issuing these permits. LDEQ should
provide a simple list of all of the permits that a single facility has at the point in
time when a given permit is being sent out for public notice, together with
emissions totals. This would likely be one to two pages for Title V facilities, but
would serve the purpose of at least alerting the public that this is one of a number
of permits for the same facility.




                                  14
                               Chapter 3
       Region 6 Oversight Needs Improvement
         EPA Region 6 oversight of LDEQ’s Title V air permitting program needs
         improvement. EPA Region 6 did not review public participation issues as part of
         its review of permits, and needs to resolve some permit related issues with LDEQ.
         As a result, LDEQ’s permitting program has deficiencies, which can impede
         public participation (see Chapter 2).

Improvements Needed in Public Participation Oversight
         EPA Region 6 did not review public participation issues as part of its review of
         permits. Region 6 – as the entity that authorized Louisiana to carry out the
         program – should oversee LDEQ’s implementation of the program to ensure that
         the goals are met. However, in our opinion, Region 6 did not adequately review
         public participation issues because the Region did not:

         •   receive public comments before LDEQ finalized permits.

         •   place emphasis on oversight of public participation.

         •   perform a thorough on-site review at LDEQ.

         According to EPA’s Strategic Plan, EPA oversight of state environmental
         programs is to ensure compliance with federal laws and achievement of national
         objectives. Further, it states that EPA will foster efforts to make environmental
         and human health information more available and understandable to the public,
         and EPA should tailor the type and amount of EPA oversight to the needs of
         individual states. However, we noted the following issues.

         Public Comments Not Reviewed By EPA Before Permit Issuance

         Region 6 did not review public participation issues because it did not require
         LDEQ to provide relevant documents for review before LDEQ finalized permits.
         Citizens have raised concerns about public participation in the Louisiana Title V
         program. Nonetheless, the Records of Decision, public comments from hearings,
         written comments, and LDEQ's responses to these comments were submitted to
         the Region by LDEQ after the final permit was issued, according to Region 6's
         Permitting Division. Region 6 stated that there are a few instances, such as for
         controversial permits, when they may review LDEQ’s activities before the public
         comment period expired. However, they indicated the Permitting Division did not
         routinely review public comments when they reviewed proposed permits. Further,
         the Region did not provide any documentation, including in mid-year and end-of-
         year review reports, showing that they had reviewed public comments and LDEQ

                                         15
        responses. As a result, Region 6 did not proactively identify issues that may affect
        citizens and hold LDEQ accountable for addressing the issues.

        Region 6 Needs More Proactive Public Participation Oversight Role

        The 2001 Performance Partnership Grant workplan states: (1) how LDEQ should
        notify the public regarding permit actions, and (2) that EPA will continue to
        receive copies of draft permits for review and provide comments to LDEQ.
        However, the workplan does not require EPA to oversee the public participation
        process. According to EPA’s Strategic Plan, EPA will negotiate performance
        partnership agreements with states that define the roles and responsibilities of
        both EPA and states. The Region 6 Permitting Division Director told us that the
        Region needs to improve its public participation process, including identifying
        how citizens’ comments could improve the permitting process. He also stated that
        the Region is spending an increasing level of resources responding to citizen
        petitions. In our opinion, if the Region took a more proactive approach to
        oversight and identifying potential problems, the Region may not receive as many
        petitions.

        Region Oversight Insufficient to Note Public Participation Problems

        Region 6 has not performed a thorough on-site review of Louisiana’s permitting
        system since LDEQ reorganized 4 years ago. While the Region has traveled to
        LDEQ to discuss specific issues, such as controversial permits, it did not do so for
        the air portion of the mid-year and end-of-year reviews. (We were aware of such
        on-site end-of-year reviews performed by Region 6's Water Division.) Region 6
        Permitting Division officials said they could not remember the last time Region 6
        went to LDEQ to perform a review for the air program. Due to a limited travel
        budget, they said they conducted reviews twice a year via telephone and fax.
        They noted states have requested more on-site reviews by the Region. Because
        the Region does not travel to LDEQ’s offices to perform reviews, it does not
        review LDEQ’s air permit files. If they had reviewed those files, they may have
        determined that the files were unorganized, incomplete, missing, and inaccessible
        (see chapter 2). Region 6 staff also told us that, with the exception of hearings on
        petitioned or complex permits, they did not attend LDEQ public hearings.

Region 6 Needs to Resolve Permit Issues with LDEQ
        Region 6 has identified problems with LDEQ’s regulations regarding excess
        emissions, but has backed off, or “disinvested,” its efforts toward resolving the
        issue. Since 1997, the Region has reviewed fewer permits each year.

        Region 6 Disinvesting in Resolving Excess Emissions Concern

        Region 6 identified and documented a problem in 1998 with LDEQ’s regulations
        pertaining to startup, shutdown, and maintenance events. The Region believes

                                         16
LDEQ’s regulations do not address enforcement regarding unauthorized
emissions and startup, shutdown, and maintenance activities. However, LDEQ
believes its regulations and procedures comply with EPA policy in these areas,
and Region 6 has been unable to resolve the issue with LDEQ. In the Region’s
2002 Memorandum of Agreement with the Office of Air and Radiation, the
Region said resolving this difference with LDEQ is a lower priority and they plan
to disinvest in the effort.

Region 6 Has Reviewed Fewer Permits

Region 6 has reviewed significantly fewer permits over the past 4 years. While
the number of permits issued by the five Region 6 states dropped 51 percent from
1997 to 2001, the number of permits the Region reviewed dropped even more.
For the entire Region, Region 6 reviewed 65 percent fewer draft permits in 2001
than in 1997 (see Table 2). The Region had to estimate how many permits it
reviewed because, until 2000, it did not track permits reviewed. Regional
officials could not provide us with a
breakdown by state. They also could not          Table 2: Estimate Number of
                                                Permits Reviewed by Region 6
provide information on the number of
comments they made on LDEQ’s draft                 Year              No.
permits or the type of comments, because
                                                   1997              200
Region 6 did not keep a separate file or
tracking system of their comments.                 1998              150
Further, the estimates in Table 2 include          1999              100
all types of air permits because the Region
                                                   2000               70
was unable to determine which were
solely Title V permits. Instead, the Region        2001               70
filed its written comments in each
individual permit file. Therefore, Region
personnel would have to pull and review approximately 600 files to identify
trends.

According to Region 6, it has reviewed fewer permits because priorities have
shifted and turnover has been high in the Air Permits Section. Staffing in the
Section has declined from 17 people in fiscal 1998 to 11 as of January 2002, a
35-percent drop. According to the Section, they are in the process of hiring two to
three people. EPA’s Office of Air and Radiation indicated staff allocations for
Region 6's air program have remained constant since 1999, at about 58 full-time
employees.

The Office of Air and Radiation’s National Program Guidance for fiscal 2002
stated that all of EPA’s 10 regions should, among other things, review at least
10 percent of the Title V operating permits proposed by states and local permitting
authorities. However, Region 6 is concentrating on other priorities. For fiscal
2002, the Region--in an investments/disinvestments chart–indicated it does not
plan to review at least 10 percent of Title V operating permits, and is reducing the

                                17
        number of formal mid-year reviews. Region 6 plans, among other things, to
        spend more resources on reviewing Title V permit petitions, and coordinating
        with OIG on the “Inspector General study [audit] on permits.” The Region’s
        priorities noted in its 2001 end-of-year review of LDEQ’s air program documents
        relate primarily to emissions credit banking issues.

Conclusion
        Region 6 has not taken sufficient responsibility for ensuring that LDEQ operates
        an effective air permits program. EPA oversight is supposed to ensure that states
        comply with federal laws and achieve national environmental goals. In this role,
        EPA should foster efforts to make environmental and human health information
        more available and understandable to the public. EPA Region 6 officials have
        stated they are aware of longstanding problems with LDEQ’s implementation of
        delegated programs, yet we believe they have not demonstrated sufficient efforts
        to correct the problems.

Recommendations
        We recommend that the EPA Region 6 Administrator require staff to:

        3-1    Review public participation issues related to LDEQ’s Title V permits,
               including reviewing comments to LDEQ-proposed Title V permits prior to
               LDEQ’s issuance of final permits.

        3-2    Clearly define what part of the Region’s organization is responsible for
               addressing Title V public participation oversight and how such oversight
               will be conducted.

        3-3    Perform a thorough on-site review at LDEQ of the air permits program,
               including records management and public participation.

        3-4    Establish a system for tracking the permits reviewed by state and facility
               name, and include the comments it makes for each permit reviewed and
               how it resolved the comments.

        3-5    Comply with the National Program Guidance and review at least
               10 percent of LDEQ’s proposed Title V permits prior to LDEQ issuance.


Agency Comments and OIG Evaluation
        Region 6 agreed with Recommendation 3-1. The Region stated that there are
        implementation issues with their current practice of reviewing permits that need to
        be improved. The Region stated that it is currently discussing an approach to

                                        18
revise their review procedure to include an EPA review of public comments and
the separation of the comment periods on a regular basis. To be responsive to our
recommendation, the Region in its final response needs to provide us with specific
actions it plans to take to correct this situation and when they plan to complete
such actions.

Region 6 agreed with Recommendation 3-2. The Region stated that its Air
Permits Section with the Multimedia Planning and Permitting Division is
responsible for oversight. However, they further stated that, while review of
public participation is inherent with EPA’s oversight role of the permit program, it
would be better to specifically state this intent in the performance partnership
grant document to clarify that point. The Region stated that it plans to include this
statement in the fiscal year 2003 performance partnership grant with LDEQ.
Region 6 said it will also continue to participate in public events, such as public
hearings, on an ongoing basis as resources and priorities allow. The Region’s
response and planned corrective actions, when complete, will address this
recommendation. No further response is needed on this recommendation.

Region 6 agreed with Recommendation 3-3. The Region stated that it will review
LDEQ’s air permits program, records management, and public participation in the
fiscal years 2002, 2003, and 2004 program reviews. They also stated that they
expect to conduct an on-site end-of-year review in October 2002 for LDEQ. The
Region’s response and planned corrective actions, when complete, will address
this recommendation. OIG requests that Region 6 provide OIG with
documentation of its October 2002 on-site review at LDEQ.

Region 6 agreed with Recommendation 3-4. The Region stated that it established
a database, in March 2001, that tracks permits it has reviewed. The database,
according to the Region, contains draft permits and supporting documents, such as
fact sheets, comment letters, and correspondence between the Region and LDEQ.
The Region stated that it would develop a format for gathering all comment letters
electronically and ensure consistent data input for each state. The Region, in its
final response to this report, needs to provide OIG the timeframe in which they
plan to complete the development of this format.

Region 6 generally agreed with Recommendation 3-5. The Region stated that it
has continued to meet the Headquarters goal of reviewing 10 percent of the
operating permits. The Region further stated that its current review strategy for
fiscal year 2003 for Louisiana includes the review of Title V permits for facilities
located in non-attainment areas and that involve netting or offset requirements.
The Region also stated that it plans to conduct on-site visits on a rotating schedule
so that all states have an on-site mid- or end-of-year review every 2 years.

Although the Region stated in its response that it has continued to meet the
Headquarters goal of reviewing 10 percent of Title V permits, they were unable to
provide detailed data to show that. The data the Region provided were estimates

                                 19
of permits reviewed, and the data included all types of air permits because the
Region was unable to determine which were solely Title V permits. The Region’s
actions, when completed, will address Recommendation 3-5, and no further
response is need on this recommendation. The OIG requests that Region 6
provide the OIG with documentation showing completion of its future on-site
visits at LDEQ.




                               20
                               Chapter 4
                              Other Matters
         During our review, we identified two issues not directly impacting our objectives
         that we believe should be brought to Region 6’s attention. While we did not
         perform sufficient work to reach conclusions, we are bringing these issues to the
         attention of Region 6 management because there could be systemic problems that
         need to be addressed. Specifically, we noted that:

         •   LDEQ’s Title V air permit backlog is very large and continues to grow.

         •   EPA Region 6 has not performed an audit of LDEQ’s permit fees.

         We believe that the underlying causes of the first matter may be LDEQ’s
         reorganization and use of its Tools for Environmental Management and Protection
         Organizations (TEMPO) data system. The Louisiana Office of the Legislative
         Auditor also reported in its March 2002 report that the LDEQ reorganization and
         use of TEMPO have decreased employee morale and productivity, including the
         issuance of permits. EPA Region 6 has not performed an audit of LDEQ’s permit
         fees because they did not believe it a high priority.

         LDEQ reorganized in 1998 from a departmental organization that focused on
         program-specific issues – such as air, water, and hazardous waste – to a
         functionally-based organization that focuses on such areas as permits, inspections,
         and enforcement. According to LDEQ, the reorganization was to result in a more
         efficient and effective workplace. At the time of the reorganization, LDEQ also
         undertook a massive project to consolidate all electronic data and paper files into
         one integrated system.


LDEQ’s Title V Air Permit Backlog Continues to Grow
         The Clean Air Act amendment of 1990 required all Title V air permits to be
         issued by November 1997. EPA revised its deadline for meeting the requirement
         to December 2003. According to LDEQ, it still needs to issue 315 initial Title V
         permits, and LDEQ has verbally agreed to issue them by December 2003.
         However, LDEQ has not told EPA how it intends to do so. LDEQ would have to
         issue about 158 new permits a year in 2002 and 2003 to meet the revised deadline.
         Since LDEQ issued only 51 Title V permits in 2001, and the number of permits
         LDEQ has issued has been steadily declining since 1998 (see graphic for permits
         issued and LDEQ projections), it appears unrealistic that they will meet the new
         deadline. This is particularly so because LDEQ has saved the most complicated
         Title V permits and those that take the longest to write until last. Title V permits


                                          21
        are valid for 5 years, and since
        the original Title V air permits
        issued starting in 1996 began to
        expire in 2001 and need renewal,
        the total number of permits to
        issue will be even greater.

        The Region did not require
        LDEQ to timely reduce its air
        permit backlog. The Region did
        not negotiate any air permit
        backlog reduction commitments      Source: LDEQ Permits Divis ion

        for LDEQ from 1999 through
        2001. Title V does provide for implementation agreements, and these can be an
        appropriate mechanism for addressing permit backlogs.


Region 6 Has Not Performed a Fee Audit of LDEQ
        EPA Region 6 had not performed any Title V permit fee reviews (fee audits) of
        LDEQ. A fee audit is conducted to ensure that a state is not mixing money
        (i.e., the state is only spending Title V dollars on authorized activities). If the
        Region identifies deficiencies in the audit, the Region could recommend that the
        fee is too low and needs to be increased to ensure successful operation of the
        program. The Region could also recommend that money be spent only for
        authorized purposes. If EPA does not analyze the fees, LDEQ may not obtain
        sufficient funds to run its Title V program.

        EPA concluded in the September 12, 1995, Federal Register that LDEQ collected
        an average of $19 per ton for all pollutants ($9 per ton for criteria pollutants, and
        $25, $50, or $100 per ton based on the class of the pollutant for facilities that emit
        hazardous air pollutants). Louisiana’s average fee of $19 per ton is well below the
        EPA-determined “presumptive minimum” amount of $35 per ton to adequately
        run a state Title V program.

        Further, LDEQ has not collected all of the fees it has assessed. According to the
        Louisiana Legislative Auditor’s March 2002 report on LDEQ, outstanding permit
        fees were a part of the nearly $11 million uncollected by LDEQ for the 10 year
        period beginning in fiscal year 1992.

        One of the Regional responsibilities listed in the Office of Air and Radiation
        National Program Guidance for fiscal 2002 is to perform fee oversight reviews on
        25 percent of the states and Title V permitting authorities (in the case of Region 6,
        reviews of two states). However, according to Region 6, Arkansas is the only
        state for which they have conducted a fee audit. Further, Region 6 listed Title V

                                         22
       fee audits as one area for which they plan to reduce efforts (“disinvestments”).
       The fiscal year 2000 grant work plan for LDEQ contained the goal of conducting
       a permit fee review.


Agency Comments and OIG Evaluation
       Regarding Louisiana’s air permit backlog, the Region stated that Louisiana is
       average for issuance of Title V permits compared to other states throughout the
       nation. However, during the audit we were not aware of any documentation from
       Region 6 encouraging the state to comply with the original timeline for issuance
       of permits, or requesting the state to commit to a compliance completion
       schedule. The Region stated that LDEQ has committed to issuing all Title V
       permits by December 2003. OIG believes that Region 6 needs to provide
       adequate oversight to ensure that LDEQ meets this December 2003 timeframe.

       Regarding the fee audit issue, Region 6 informed us that it plans to perform a fee
       audit for Louisiana’s Title V program during fiscal year 2003. OIG agrees with
       the Region’s proposed action.

       Based on our evaluation of the Region’s comments to the draft report, we
       removed a section on potential inspection issues from the report. The Region
       noted that the inspections that EPA conducted during the audit and those that
       LDEQ conducted months earlier were different in scope and not comparable. The
       Region also stated that it is EPA policy for inspectors to identify potential "areas
       of concern," not "violations" as the audit report suggested.




                                        23
                                                                                        Exhibit A


        Background on the Clean Air Act Title V Program

Title V Program Established in 1990

            The 1990 amendments to the Clean Air Act established the Title V operating
            permit program. Congress’ main goal in adopting the Title V program was to
            achieve a broad-based tool to aid effective implementation of the Act and enhance
            enforcement. Title V requires operating permits for every major source of a
            regulated air pollutant and any other source covered by a current permit program.
            Title V of the Clean Air Act requires every major source to obtain an operating
            permit (see “Definitions of Major Stationary Sources” section of this exhibit).
            The permit includes information on which pollutants are being released, how
            much may be released, and what kinds of steps the source’s owner or operator is
            taking to reduce pollution, including plans to monitor (measure) the pollution.
            Title V permits are intended to record in one document all of the air pollution
            control requirements that apply to the source. This gives the public, regulators,
            and the source a clear picture of what the facility is required to do to keep its air
            pollution under legal limits. The Title V permit should result in:

            •   A better understanding of the requirements that a source is subject to.
            •   A basis for determining whether a source is complying with the requirements.
            •   Increased accountability and enforcement.

            Permits include enforceable emissions limits and standards, plus inspection,
            monitoring, compliance certification, and reporting requirements for the source.
            Title V permits also provide a ready vehicle for implementing other significant
            parts of the air program, including efforts to reduce acid rain.

States, Local Agencies Given Responsibility for Implementing Title V

            States and local agencies that are authorized to implement the Title V program
            must take action to ensure facilities meet EPA standards. This ensures that all
            Americans, no matter what state they live in, have the same basic health and
            environmental protections. The law allows individual states to have stronger
            pollution controls, but states are not allowed to have weaker pollution controls
            than those EPA sets for the whole country. States and local agencies are required
            under the Title V program to, among other things: provide for adequate public
            participation in the permitting process, hold public hearings on proposed permits
            and issuing public notices; issue permits; inspect facilities; take enforcement
            actions; and implement regulations.

            There are 112 states and local agencies in the United States approved by EPA to
            administer the Title V permitting program. In some states (but not Louisiana),


                                             24
           local agencies are responsible for implementing air pollution control programs,
           such as Title V. Each state and local agency is responsible for developing and
           implementing Title V operating permit program. Congress established the Title V
           program to be funded by fees from industry.

           Facilities that seek permits to operate are required to pay permit fees based on the
           pounds of pollutants they estimate they will emit on a yearly basis. The fees that
           companies pay are intended to help fund state air pollution control activities
           (including the permit program). To have an approvable program, state and local
           agencies must be able, through fees, to recoup all reasonable costs of developing
           and administering the program, including the reasonable costs of emission and
           ambient monitoring, modeling, and reviewing and acting on permit applications.

           Other key provisions that must be part of a Title V program before EPA should
           approve it include:

           •   Monitoring and reporting requirements.
           •   Authority to terminate, modify, or revoke and reissue permits for cause.
           •   Authority to enforce permits, permit fee provisions, and the requirement to
               obtain a permit.
           •   Public notification and opportunity for comment for every new permit and
               when permits are renewed or significantly revised.
           •   The requirement that sources provide emission reports to their permitting
               authorities at least semi-annually and certify compliance status annually.

           A Title V permit contains all air pollution control requirements that a source must
           meet under the Act. This includes requirements established by EPA, states, and
           local agencies as part of a federally approved program, and states and local
           agencies that are not required by the Act and are not federally enforceable. The
           permit will sometimes create new requirements. The Act requires that permits
           contain adequate monitoring to determine whether the source is complying with
           specific requirements. If the current EPA or state/local agency requirements do
           not include monitoring, the Title V permit will create new compliance monitoring
           activities.

EPA Provides Oversight

           While states and local agencies primarily implement the Title V program, EPA
           has an oversight role. EPA should review and approve each state and local
           agency’s operating permits program; oversee implementation of the program;
           review a sample of proposed permits; and, if necessary, object to improper
           permits proposed. In addition to approving state or local agency programs, EPA
           is responsible for ensuring that states and local agencies administer and enforce
           the programs. If EPA finds a state or local agency is not adequately administering
           and enforcing a part of the Title V program, EPA is to notify the state or local


                                            25
                     agency of its finding. If the deficiencies are not corrected, EPA can apply
                     sanctions, withdraw the program, or administer a federal program in that state.

                     Within EPA’s Office of Air and Radiation, the Office of Air Quality Planning and
                     Standards is responsible for developing national regulations and guidance for
                     Title V and providing technical assistance to EPA regions and the states. Regions
                     are responsible for reviewing proposed permits, assisting states and local agencies
                     in getting initial permits issued, and monitoring permit renewal requirements.
                     Every 2 years, the Office of Air and Radiation and the regions negotiate a
                     Memorandum of Agreement identifying what activities they will perform.

Definitions of Major Stationary Sources

                     Passage of the Clean Air Act Amendments of 1990 brought new definitions of
                     major stationary sources that varied depending on the type of pollutant, the
                     attainment status of the area where the pollutant is emitted, the synergistic effects
                     of multiple airborne pollutants, the ability of pollutants to travel long distances,
                     and other factors. As a result, simple definitions of what sources are major are
                     difficult to find. Generally, a major source is any source with annual emissions
                     that meet or exceed levels specified in the Act. Table 3 shows the annual
                     emission levels, in tons of pollution, that define a major source of any National
                     Ambient Air Quality Standard pollutants under the Act:
                                   Table 3: Annual Emission Levels that Define Sources

                                                                    Potential to Emit (Tons/Year)

   Attainment Status                                                                                                        Volatile
    of Area Where               Carbon                     Nitrogen         Nitrogen        Particulate      Sulfur        Organic
       Source Is               Monoxide         Lead       Dioxide           Oxides           Matter         Dioxide      Compounds
        Located                  (CO)           (Pb)*       (NO2) *          (NOx)           (PM-10)         (SO2)*         (VOCs)
 Attainment Areas                  100           100          100              100              100            100             100
 Nonattainment Areas
       Marginal **                                                             100                                             100
       Moderate                    100                                         100              100                            100
       Serious                      50                                          50               70                             50
       Severe **                                                                25                                              25
       Extreme                                                                  10                                              10
       Northeast Ozone                                                     50-marginal                                     50-marginal
       Transport Region                                                   100-moderate                                    100-moderate
   *      The Act did not establish additional major source classifications for these pollutants based on an area’s attainment status.
  **      Nonattainment areas for CO and PM-10 are classified as either moderate or serious.



                     For example, a steel drum reconditioner, located in a non-attainment area
                     classified as “serious,” which applies paint to the steel drums before selling them
                     and annually emits 50 tons or more of volatile organic compound emissions into
                     the air, is a major source.



                                                                    26
The 1990 Act also added new definitions for major sources of hazardous air
pollutants, generally referred to as air toxics. The Act listed 188 such air toxics,
including the airborne emissions of arsenic, benzene, dioxin, formaldehyde,
mercury, and perchloroethylene. By definition, any source is a major source if it
emits 10 or more tons annually of any one of these 188 air toxics, or 25 or more
tons of any combination of these 188 air toxics.

In addition to these 188 air toxics, there are other pollutants, such as asbestos,
regulated under the National Emission Standards for Hazardous Air Pollutants,
that may cause sources to qualify as major sources. Additionally, engaging in or
undertaking certain activities can cause a source to become a major source. These
generally involve sources that are subject to one or more of the following:

•   EPA’s New Source Performance Standards limitations for new sources of
    pollution.
•   Prevention of Significant Deterioration provisions or the non-attainment area
    New Source Review provisions for expanding or changing sources.
•   Selected sources with potential to contribute to acid rain problems.
•   Solid waste incinerators.

According to EPA, over 35,000 sources in the United States have the potential to
emit pollutants in sufficient amounts to be a major source, and thus be required to
obtain a Title V permit. However, about 17,000 sources have chosen to limit their
hours of operation, install pollution control equipment, or take other actions to
avoid being subject to the Title V requirements.




                                  27
                                                                                     Exhibit B

                   Details on Scope, M ethodology,
                      and Prior Audit Coverage

Scope and Methodology
          We conducted our audit fieldwork at LDEQ in Baton Rouge, Louisiana; EPA
          Region 6 Headquarters in Dallas, Texas; the EPA Office of Air and Radiation’s
          Office of Air Quality Planning and Standards in Research Triangle Park, North
          Carolina; and the EPA Office of Enforcement and Compliance Assurance in
          Washington, DC. We limited our review of LDEQ to the air program – we did
          not review LDEQ’s water, solid waste, or hazardous waste programs. We
          interviewed LDEQ management, permit writers, inspectors, enforcement
          personnel, public participation staff, and attorneys regarding public participation
          issues under Title V. We also visited LDEQ’s Acadiana Regional Office in
          Lafayette. We also obtained and reviewed internal audit reports conducted by
          LDEQ staff to determine whether LDEQ had audited its air permitting program.
          We reviewed LDEQ’s website to obtain information related to issued Public
          Notices.

          We obtained a listing of all Louisiana Title V permits from LDEQ. We
          judgmentally selected a sample of 10 major facilities in Louisiana, and reviewed
          permits, correspondence, public participation files, and information related to
          proposed and final permits. We only reviewed facilities classified as “major”
          sources (see Exhibit A). We also reviewed compliance and inspection files for the
          facilities to determine enforcement-related activities LDEQ had conducted. We
          selected these 10 major facilities because most were located in or near Louisiana’s
          only non-attainment area – which includes the five-parish area around Baton
          Rouge – and because they were petroleum refineries or petrochemical companies,
          which emit significant amounts of pollutants into the air. The public had also
          expressed concerns about some of these facilities. The 10 Louisiana facilities are
          listed below and shown in the map that follows:
          <    Chevron Chemical Co., Belle Chasse
           <   Conoco, Inc., Westlake
           <   Dow Chemical Co., Plaquemine
           <   Exxon Mobil Co., U.S.A., Baton Rouge
           <   Marathon Ashland Petroleum, LLC, Garyville
           <   Motiva Enterprises, LLC, Convent
           <   Motiva Enterprises, LLC, Norco
           <   Rubicon, Inc., Geismar
           <   Tosco (BP Oil), Belle Chasse
           <   Westlake Petrochemical, Sulphur




                                           28
To obtain information related to public participation, we interviewed citizen
groups in Louisiana. We spoke with officials from the Louisiana Environmental
Action Network, the Calcasieu Louisiana Environmental Action Network, the
Mossville Environmental Action Network, and the Environmental Defense Fund.
We also spoke with officials from the Tulane Environmental Law Clinic. We did
not meet with citizens individually.

We also attended and observed interactions at four public hearings in Louisiana
during the months of July 2001 to November 2001 related to four proposed
permits, for (1) Dow Chemical, (2) Ventures Lease Company, (3) Condea Vista,
and (4) Honeywell. Prior to three of the four hearings, we visited three Louisiana
public libraries the day of the public hearings to review the permit materials
provided to the public for review, to determine whether LDEQ had provided the
libraries with the relevant permit documents for the public’s review, as required.
We also attended one public meeting in Calcasieu Parish in January 2001 between
EPA Region 6 staff and members of the Calcasieu Louisiana Environmental
Action Network and Mossville Environmental Action Network.

To obtain information regarding LDEQ’s air inspection process, we participated
in two unannounced facility inspections – Borden Chemicals and Plastics, and
Vulcan Chemical Corporation, both in Geismar (see map above). EPA inspectors
from Region 6, assisted by inspectors from EPA Regions 2 and 4 (at the request of
Region 6), conducted the multimedia inspections from November 5-8, 2001. We

                                29
           selected these two facilities because they were recently inspected by LDEQ, and
           they were both large chemical plants in Louisiana’s non-attainment area.

           While OIG staff did not assess the technical quality of LDEQ’s permits or the
           likelihood that the public could read and understand them, we did provide an
           example of an LDEQ-issued permit to California’s South Coast Air Quality
           Management District for its review and comment. That District is responsible for
           issuing air permits to regulated entities in southern California, and was
           recommended to us by Region 6 for the purpose of providing a valid independent
           review of LDEQ permits.

           We conducted fieldwork related to EPA oversight primarily at EPA Region 6
           Headquarters. We interviewed EPA Region 6 management and program staff
           responsible for oversight of LDEQ. We obtained copies of Region 6’s mid-year
           and end-of-year reviews of LDEQ, as well as the performance measures identified
           in the Performance Partnership Agreement between EPA Region 6 and LDEQ.
           Region 6 also provided the amount of EPA funding given to LDEQ since 1996 to
           administer the air program. We also reviewed EPA’s website, analyzed 1999
           Toxic Release Inventory data, and compared all five of the Region 6 states’ air
           emissions by population and square mileage to determine how Louisiana
           compared to the other states in Region 6. We did not review the quality of the
           data in the EPA and state databases.

           We also met with staff from EPA’s Office of Air Quality Planning and Standards.
           We discussed issues related to Regional oversight as well as LDEQ’s issuance of
           multiple permits for individual facilities. We spoke with officials from EPA’s
           Office of Enforcement and Compliance Assurance for their perspectives on
           LDEQ’s permitting methods.

           We obtained health information from the Centers for Disease Control’s and
           EPA’s websites.

           During our audit we coordinated and shared information with the Louisiana Office
           of the Legislative Auditor from October 2001 to January 2002. We conducted
           joint interviews of LDEQ staff with state auditors and provided state auditors with
           data and information related to air issues.

            We conducted our audit fieldwork from May 2001 to January 2002. We
            performed the audit in accordance with the Government Auditing Standards,
            issued by the Comptroller General of the United States, as they apply to program
            audits.

Prior Audit Coverage

            We issued a report on March 29, 2002, EPA and State Progress In Issuing Title V
            Permits (Report No. 2002-P-00008). This report notes that permit issuance has
            been delayed among states. It further notes that EPA did not provide adequate
            oversight and technical assistance to state and local Title V programs, and did not

                                            30
use the sanctions provided in the Clean Air Act to foster more timely issuance of
Title V permits.

We also issued a report on September 26, 1996, Region 6's Enforcement and
Compliance Assurance Program (Report No. 6100309), which included a review
of air enforcement activities in Louisiana. We found that Region 6 and some of
its states, including Louisiana, did not adequately publicize enforcement actions.
Louisiana also did not formally compute the economic benefit received by
industry when assessing fines for violating the Clean Air Act.

The Louisiana Office of the Legislative Auditor issued a report on all of LDEQ’s
programs (air, water, solid waste, and hazardous waste) in March 2002,
Performance Audit: Department of Environmental Quality. They found that
LDEQ had not issued 38 percent of the initial Title V permits, and did not issue
enforcement actions for 25 percent of air monitoring violations. Further, 13
percent of the air files the state auditors requested could not be found by LDEQ.




                                31
     Appendix 1

EPA Region 6 Response




         32
                     Appendix 2

Louisiana Department of Environmental Quality Response




                          50
                                                                              Appendix 3

                                     Distribution

Office of Inspector General
      Inspector General
EPA Headquarters
      Assistant Administrator for Air and Radiation (6101)
      Assistant Administrator for Enforcement and Compliance Assurance (2201A)
      Director, Information Transfer and Program Integration Division, Office of
       Air Quality Planning and Standards (MD-12)
      Counsel to the Assistant Administrator for Air and Radiation (6101)
      Agency Followup Official (the CFO)(2710A)
      Agency Audit Followup Coordinator (2724A)
      Associate Administrator for Congressional and Intergovernmental
         Relations (1301A)
      Associate Administrator for Communications, Education, and
         Media Relations (1101A)
      Director, Office of Regional Operations (1108A)
EPA Region 6
      Regional Administrator
      Deputy Regional Administrator
      Director, Multimedia Planning and Permitting Division
      Director, Enforcement and Compliance Assurance Division
      Audit Followup Coordinator
      External Affairs Office

Louisiana Department of Environmental Quality

       Secretary




                                           70
                                                                                                                                      ".""".


..
          ~\1~D
              ST~/,~                         UNITED      STATES       ENVIRONMENTAL                PROTECTION            AGENCY
      .-:i
     i~ftu
     9"
          ~        ".
                        'f.
                        ~
                                                                                   REGION 6
                                                                       1445 ROSS AVENUE, SUITE 1200
                                                                           DALLAS, TX 75202-2733
     -..~           ~
      ~£ PRD~r1"




                                                                     June21,2002


             MEMORANDUM

             SUBJECT:               Response to Office of Inspector General (OIG) Draft Report: "Louisiana's
                                    Air Permitting Program Needs to     er Address Public Participation
                                    Concerns"; Report Number 20        5 XX)OO(

             FROM:                  Carl E. Edlund, P.E., Dir             t
                                    Multimedia Planning an                e

             TO:                    Randy Holthaus
                                    Region 6 OIG Branch Manager (61G)


                     The purpose of this memorandum is to respond to the above referenced draft
             audit report forwarded to Region 6 on May 15, 2002, for review and comment. In
             general, the report concludes that "although LDEQ met the public participation
             requirements for air permitting, its process could be improved." (Executive Summary,
             p. i.) In addition, the audit points out areas where the U.S. Environmental Protection
             Agency (EPA) oversight of State air permit programs can be strengthened. We agree
             that improvements by both EPA and the Louisiana Department of Environmental
             Quality (LDEQ) can be made in the Title V program and your audit report to provide
             recommendations to strengthen the State and EPA operating relationship. The
             attached summary provides a response to each of the Region 6 OIG concerns,
             comments, and/or recommendations. In general, we agree with many OIG
             recommendations; however, we have also identified several points needing clarification
             or corrections and summarized a number of initiatives that are already under way to
             make improvement in areas that you identify as needing change.

                    There is one broad conclusion in the draft report that we wish to highlight for
             review by OIG. The first page of the Executive Summary states that: "Region 6
             oversight [of the LDEQ] was limited primarily because EPA management has
             over-emphasized 'partnering' with the state." We did not find evidence in the report to
             support this perception and have offered in our response examples of how EPA
             oversight and partnership have made effective improvements in the air permit program.
             Both State and Federal environmental programs share common missions to protect


                                                        Internet Address (URL) -httP://www.epa.Qov/earth1 r6/
                          Recycled/Recyclable.   Printed with Vegetable Oil Based Inks on Recycled Paper (Minimum 30% Postconsumer)
j




                                                2

    public health and the environment,  so partnerships are an effective way to respond to
    common goals. It is also important to note that when we seek program improvements
    above the basic regulatory requirements,    the good faith between the agencies --the
    spirit of partnership --becomes  specially important.

           Thank you for the opportunity to comment on the report. I look forward to
    working with you in the future on this and other aspects of Louisiana's environmental
    program.  Should you have any questions, please feel free to contact me or
    Mr. David Neleigh of my staff at (214) 665-7250.

    Attachment

    cc:    Gregg Cooke (6RA)
           Larry Starfield (6RA-D)
           Rebecca Weber (6PD)
           David Neleigh (6PD-R)
           Bonnie Braganza (6PD-R)
           Charles Sheehan (6RC)
           Ragan Tate (6RC-M)
           Lucinda Watson (6RC-M)
           Michael Boydston (6RC-M)
           Sam Coleman (6EN)
           Donna Ascenzi (6EN-AA)
           Gerald Mokry (6EN-AA)
J




                                            ATTACHMENT


            The following comments are furnished in response to the Region 6 DIG's draft
    audit permit on Louisiana's Air Permitting Program Needs to Better Address Public
    Participation Concerns,   Report Number 2000-1351-xxxxx,  dated May 15, 2002:

    CHAPTER     1: "Introduction"

    OIG Comment:        "Clean   Air Act and Title V"

            The DIG draft report states that "Title V requires operating permits for every
    major source of a regulated air pollutant and any other source covered by a current
    permit program.     Each Title V operating permit is supposed to reduce source violations,
    improve regulatory agency enforcement abilities, establish site-specific monitoring
    requirements,   increase source accountability,  and ensure adequate public involvement
    in permitting process."

    EPA Response

           Several   points should be clarified:

    .The        Clean Air Act does not require operating permits for "any other source
           covered by a current permit program" or to "establish site-specific monitoring
           requirements."

    .A        permitted minor source of criteria pollutants is not presently covered under
           Title V rules. Such minor sources are covered only if they are on the major
           source's property.  (See Sections 501 and 502 of the Clean Air Act).

    .We         also allow different   methods     than monitoring   to determine   compliance   with a
           permit.


    OIG Comment:        The draft audit report states that EPA delegated       the Title V program   to
    LDEQ effective     October 12, 1995.

    EPA Response:

    .We         should clarify that under the Clean Air Act, we grant "approval" or
           "authorization,"   not "delegation." This is important to note, since each of these
           terms have distinct legal meanings, in the Water, Hazardous Waste, and Air
           Programs.

                                                                 0



                                                       3
)




    DIG Comment:         "Environmental     and Health        Issues"

           The draft report states that the Baton Rouge area is in the process             of being   re-
    designated to severe.


    EPAResponse:

    .Again,            some clarification and expansion may be useful. We have determined
              that this area is violating the 1-hour ozone standard.     We are publishing this
              determination   with the consequent reclassification   to "severe." However, we
              have an attainment plan/Transport     State Implementation    Plan (SIP) and request
              for an extension of the attainment date pending before us for action that was
              submitted by LDEO on December 31,2001.           Therefore, we are also publishing
              simultaneously   a proposal to extend the effective date of the reclassification.

    .During            this time, we will be reviewing and taking appropriate action upon the
              pending attainment plan/Transport          SIP. If we approve the attainment
              demonstration      SIP and the request for extension of the attainment date before
              the classification    action is effective, the area would not be reclassified to
              "severe." The Federal Register Notice was signed by the Regional Administrator
              on June 5,2002.



    CHAPTER       2:   "LDEQ's   Public   Participation       Process   Needs   Improvement"



    DIG Comment:      The DIG's draft report states that EPA calls for regulatory programs              to
    follow what it has identified as best practices for public participation in its 2000
    Reference Guide, Public Involvement      in Environmental  Permits.


    EPAResponse:
    .While            we endorse the substance of the 2000 Reference Guide and encourage
              States to implement programs consistent with it, we note that "[o]nly 'legislative
              rules' have the force and effect of law." Appalachian Power Co. v. EPA, 208
              F.3d 1015,1020     (D.G. Gir. 2000). We do not have the statutory or regulatory
              authority to enforce guidance as we do formal rules. If we do treat guidance as
              though it were a formal rule, then we run the risk that a court will invalidate the
              guidance for failure to follow the rulemaking procedures required under federal
              law, as indeed happened in Appalachian Power.




                                                          4
.
    DIG Comment:        "LDEQ    Met Public   Participation   Requirements"

             The report found that LDEQ met the public participation  requirements    identified
    in 40 Code of Federal Regulations (CFR) Part 70, which implements Title V of the
    Clean Air Act. The EPA's Reference Guide summarizes EPA statutory authorities,
    regulations,  and guidance materials related to public involvement.    All Part 70 programs
    provide the following seven specific opportunities for public involvement:

    .Public         Notice
    .Public         Comment Periods
    .Response            to Comments
    .Mailing         Lists
    .Statements            of Basis
    .Contact         Persons
    .Petitions         to the EPA Administrator   to object to a permit

    EPAResponse:
    .The          EPA Region 6 agrees    that LDEQ is meeting the public participation
           requirements.


    DIG Comment:     The GIG draft report found that, "while LDEQ met public participation
    requirements in 40 CFR Part 70, its process could be more effective."


    EPAResponse:

    .We          have been working with LDEQ to evaluate process issues consistent with
           guidance documents.        The LDEQ has already implemented some measures and
           is moving forward on making other changes as recommended.             We will continue
           to provide oversight of the Louisiana Title V program to ensure public
           participation  is being effectively implemented according to the intent of the
           regulatory requirements and will continue to monitor public participation     and
           record management in Fiscal Year (FY) 02. After new public participation
           processes have had the time to be implemented, we will conduct a more detailed
           review in FY03/04.      In addition, we will also continue to implement our oversight
           responsibility   of the LDEQ air permit program according to the intent of the
           regulatory   requirements.




                                                    5
.

    DIG Concern:     "LDEQ     Files Were Unorganized,        Incomplete,   Missing   or
    Inaccessible"

          The draft audit report recommends that EPA Region 6 Administrator       work with
    LDEQ to make the public participation  process for air permits more effective, with
    emphasis on the accessibility, ease of use, and understandability  of permits and other
    documents made available for review or comment.

    EPA Response:    We agree that improvements    need to be made in implementation          and
    note that LDEQ has initiated a number of process improvements:

    .We         have discussed the records access issue with LDEQ. The LDEQ instituted
           new procedures to make the original documents available for public review in the
           2nd Floor File Room much earlier than in the past. The documents are now to
           go to the file room immediately after leaving the Mail Processing Area.

    .The         LDEQ established      the public records room in October 2000 at its
           Headquarters    in Baton    Rouge to enable the public to search, retrieve, view, and
           print records that have     been scanned and stored electronically   in LDEQ
           Document Management           System. In addition, paper copies of all material
           pertinent to a particular    Title V permit are to be made available for public viewing
           in this room at the start    of the public comment period.

    .The         LDEQ has other initiatives underway to further improve the public
           participation process such as imaging, Internet based Electronic Data
           Management System search tools, and studies to evaluate and incorporate other
           actions to improve the public participation process. The EPA will continue to
           evaluate these improvements      during the course of our oversight activities on the
           Louisiana Title V operating    permit program.



    DIG Concern:     "LDEQ's    Records     Numbering      System   [is] Confusing"

             The draft report found that LDEQ's records numbering system was confusing.
    The LDEQ used four different ways to identify the same information for each facility: (1)
    facility name; (2) permit number; (3) tracker number; and (4) Agency Interest number.


    EPAResponse:
    .We          agree that improvements  need to be made. The LDEQ is in the process         of
           finalizing a computer-based   document management system, "Tool for
           Environmental     Management and Protection Organizations"   (TEMPO), that
           should allow for efficient document retrieval. The conversion of LDEQ to


                                                       6




                                              --~---
I'




               TEMPO is intended to assist the public with obtaining       required   facility information
               in a user-friendly manner.

     .We           will review records   management     issues with LDEQ in our program          reviews.



     OIG Concern:        "Key   Document   for One Permit     Not Available   for Public    Review"

             The OIG's draft report found that LDEQ did not always provide relevant permit
     documents to libraries for public review prior to hearings. For one permit, although
     LDEQ staff had provided the proposed permit, a key engineering     study was not at the
     library for public review.

     EPAResponse:
     .Although           it might be desirable   to have all supporting information, such as
             engineering studies, available       at all document repositories, this is not required        by
             the regulations.

     .The            permit files located at the libraries should contain the permit applications,
               draft permits, and information on whom to contact at the State. The LDEQ is not
               required by 40 CFR Part 70 to include key engineering studies providing
               methods and calculations for the reduction of pollutants with permit files. The
               public notice identifies the name, address, and telephone number of a person
               from whom interested persons may obtain additional information,        including
               copies of the permit draft, the application, all relevant supporting materials,
               including those set forth in 40 CFR 70.4(b)(3)(viii),   and all other materials
               available to the permitting authority that are relevant to the permit decision.     The
               public can also visit the Public Records Room at LDEQ Headquarters           to obtain
               additional information.

     .Again,           we recognize that management of permit information         is a serious    concern
               and will address this matter in our program reviews.



     OIG Concern:        "Improvements     Needed     in the Hearing   Process"

            The draft report states that LDEQ needs to improve its hearing            process    to
     ensure hearings are conducted without appearance of bias.


     EPAResponse:
     .We            agree that hearings should be conducted by government officials          without
               bias or the appearance of bias for one side of an issue or another.


                                                       7
.The          Region 6 Air permits staff have attended several permit hearings, and we
        have not observed this type of bias. The LDEQ may further address this issue in
        their response to the draft audit report.



OIG Concern:      "LDEQ     Needs   to Track     Hearings    Requested"

        The draft report states that LDEQ needs to track hearings               requested    as well as
held.

EPA Response:

.We          agree that this information is a good management tool. It is the Region's
        understanding,   however, that this information is provided within the basis for
        decision.  The basis for decision is also sent to those who have submitted
        comments.     The LDEQ may address this issue in their response to the draft audit
        report.


OIG Concern:      "Public   Participation      Not Clearly   and Sufficiently      Emphasized"

       The draft audit report states that the public participation        roles and responsibilities
within LDEQ were not clearly defined.

EPA Response:

.The         LDEQ is in a better position to respond         to these organizational        structure
        issues.



OIG Recommendation:       The report has recommended       that LDEQ needs to conduct
more outreach to the public, including soliciting citizen input with surveys and telephone
polls, discussing issues with focus groups, and holding semiannual "open house"
sessions.



EPAResponse:

.Increasing         public participation is a priority for EPA and LDEQ and part of
         management reviews. For example, the Region and LDEQ have conducted two
         Regional Air Permits Workshops.      The first workshop was April 2000, in Sulphur,
        Calcasieu Parish, Louisiana, and the second December 2001, in Houston,
        Texas. The LDEQ also participated in quarterly community forums in the Parish.


                                                   8
     DIG Concern:    "LDEQ                 Issued     Multiple   Permits   Without   Providing          Complete
     Information  to Public"

            The report states that issuing multiple permits hampers the public's ability to
     comment on proposed permits.       The report also states that because LDEQ did not
     aggregate total emissions for a given site, a complete assessment of emissions cannot
     be readily made.


     EPAResponse:

     .Multiple         permits are allowed for similar emission                  sources.       The definition         of "Part
              70 permit" at 40 CFR §70.2 is as follows:

                         Any permit or arou.o of .oermits covering a part 70 source that is issued,
                         renewed, amended, or revised pursuant to this part.

              This definition anticipates the issuance of multiple permits to a single source.
              This issue is also discussed in a December 19, 2001, letter from Judith M. Katz,
              Director, Air Protection Division, Region 3, to EarthJustice Legal Defense Fund
              regarding potential deficiencies   in the construction or implementation of the
              District of Columbia's Title V operating program and in White Paper Number 2.
              We can provide copies of these documents upon request.

     .Title          V does not require LDEQ to aggregate total emissions for a given site.
              However, when an existing major source makes a physical change, or change in
              the method of operation, the source may need to aggregate contemporaneous
              increases and decreases with the proposed increase to determine if the change
              will be subject to the provisions for Prevention of Significant Deterioration    or
               Nonattainment    New Source Review. Specifically,   a source must aggregate
              contemporaneous       emissions increases and decreases with the proposed
              increase, when such proposed increase equals or exceeds a defined threshold
              as specified in Louisiana Administrative    Code 33: 111.504, Table 1, for the
              threshold numbers for nonattainment      areas and 33:111.509.8 -Definition   of
              "significant" for attainment areas.

     .There           are advantages and disadvantages     to consider.    While a single permit for
              large sources sounds appealing because the total emissions are in one place,
              the extreme length of one such permit would be overwhelming          and might
              discourage the public from reviewing the document.        Also, if a source has
              multiple permits, addressing each separately allows the community and
              government     to concentrate on the single process unit that is being added or
              modified.




                                                                   9




'"              i"~"'""_".,.c..,.,..,...     c,.-.,                                         ._."..".~    "..."-~   "     J.., ~--~
(




    DIG Concern:         "Permit   Documents   Need to Be Clearer"

            The draft report states that LDEQ could ensure        that permits are more clearly
    written to facilitate better public understanding.


    EPAResponse:

    .The         Region is working with all of our States to improve permits to facilitate better
           public understanding.   However, the Air Permit Briefing Sheet in the draft permit
           provides the scope of the permit and proposed modifications      if any. Also, LDEQ
           provides a statement of basis, as required by 40 CFR 70.7(a)(5), that sets forth
           the legal and factual basis for the draft permit conditions. We plan to develop a
           consistent Regional approach in the future.



    DIG Concern:    The draft audit report states that citizen groups told the DIG that it is
    very hard to understand the technical processes in LDEQ permits and determine the
    impacts they may have on the environment and their communities.

    EPAResponse:

    .The         technical processes are presented       in "Plain English"   in the Air Permit
           Briefing Sheet in the draft permit.

    .The          "IT Decision" questions address the environmental          impacts from a project.
           This analysis was adopted into Louisiana's regulations,            Louisiana Administrative
           Code 33: 111.504.D.7. The "IT Decision" questions answer the following: (1)
           Have the potential and real adverse environmental           effects of the proposed
           facility been avoided to the maximum extent possible? (2) Does a cost benefit
           analysis of the environmental      impact costs balanced against the social and
           economic benefits of the proposed facility demonstrate that the latter outweighs
           the former? (3) Are there alternative projects that would offer more protection to
           the environment than the proposed facility without unduly curtailing non-
           environmental      benefits? (4) Are there alternative sites that would offer more
           protection to the environment than the proposed facility without unduly curtailing
           non-environmental       benefits? (5) Are there mitigating measures which would offer
           more protection to the environment than the facility as proposed without unduly
           curtailing non-environmental      benefits?   In addition, this approach is being
           considered as national guidance for incorporating          Environmental     Justice in Air
           Permitting.




                                                    10
,   (




        DIG Recommendation    2-1: We recommend that the EPA Region 6 Administrator
        work with LDEQ to make the public participation process for air permits more effective
        with emphasis on the:

        .Accessibility,       ease of use, and understandability               of permits and other documents
                made available for review or comment.

                 EPA Response:          We agree.

        .Number              of hearings    not held and the reasons for denial.

                 EPA Response:      The LDEQ may have addressed                 this further    in their response
                 to the GIG report.

        .Need              for LDEQ employees         to be impartial   and refrain from appearances         of bias.

                 EPA Response:          We agree and will discuss with LDEQ.

        .Clarification           of the roles and responsibilities        for State personnel     involved   with the
                 public participation      process.

                 EPA Response:      The LDEQ may have addressed                 this further    in their response
                 to the GIG report.

        .Need           to conduct more outreach to the public, including soliciting citizen input
                 with surveys and telephone polls, discussing issues with focus groups, and
                 holding semiannual "open house" sessions.

                 EPA Response:    We agree to work with LDEQ on public participation                     and will
                 discuss the recommended  processes with the State.

        .Need           to encourage LDEQ to improve its Title V permits program by listing all
                 permits for a facility and aggregating all permitted emissions on each individual
                 permit.

                 EPA Response:      We disagree.      As indicated above, aggregation      of permitted
                 emissions is not required.    At large facilities, the aggregation  of all permits could
                 discourage public participation    by overwhelming     an interested person with data.
                 We agree with the intent of this comment (to improve public understanding            and
                 involvement) but differ on how to achieve these objectives.




                                                               11
CHAPTER     3: "Region   6 Oversight   Needs    Improvement"

OIG Concern:    Region 6 oversight was limited primarily       because   EPA management
has overemphasized    "partnering" with the State.


EPAResponse:

.We         disagree with OIG perception that the Region's oversight was limited
       primarily because EPA management has overemphasized           "partnering" with the
       state. Our oversight responsibility is a key priority, and communications    and
       partnering is the essence of an effective working relationship.    The report implies
       that our partnering efforts lead to commitment shortfalls, but no examples were
       provided, without which EPA is unable to respond.

.Our         partnering efforts with regards to air permitting basically consist of regular
       discussions on pending issues, jointly reviewing permits and comments, acting
       as a technical advisor on complicated issues, management retreats, and joint
       public outreach activities.    Partnering has resulted in two EPA/LDEQ workshops
       for citizens.   We work with our state agencies to resolve issues while recognizing
       that they have the authority to implement the air permitting program in their
       states and we have oversight responsibility.       Therefore, we believe our
       partnering efforts equate to a more effective program and should not be
       evaluated solely on a commitment by commitment basis. We recommend that
       the basis for this perception,   if retained in the final report, be supported by
       appropriate documentation.

.Oversight        also includes EPA's responsibility to respond to citizen petitions of
        State permitting decisions. This oversight has resulted in real and substantive
        changes to LDEQ permitting program.



OIG Comment:      The OIG report states that, ''as a result, LDEQ's permitting program
has deficiencies, which can impede public participation     (see Chapter 2) and result in
excess emissions being allowed that can adversely affect public health and the
environment."

EPA Response:

.No       examples   of missed commitments      resulting   in excess emissions   are
       presented.




                                               12
, .



      OIG Concern:       "Public   Comments   Not Reviewed    By EPA Before Permit Issuance"

              The GIG's draft audit report states that Region 6 did not adequately review public
      participation issues because the Region did not receive public comments before LDEQ
      finalized permits.

      EPAResponse:

      .We           agree there are implementation issues. When a draft permit goes to public
                comment, the public has 30 days to submit comments on a draft permit during
                the public notice and comment period. The EPA has 45 days of receipt of the
                proposed permit to review and submit comments on a draft permit once it
                received the proposed permit and all necessary information relevant to the
                permitting decision. In the past, the public's 30 day comment period ran
                concurrently with EPA's 45 day comment period.

      .Public          comments are considered. When permit applications are expected to be
                controversial, EPA conducts a preliminary review of them prior to official draft
                issuance. In those cases, we request an extension of the EPA review time which
                allows the review of all supporting documents including public comments. We
                are currently discussing an approach to revise this procedure to include an EPA
                review of public comments and the separation of the comment periods on a
                regular basis.


      OIG Concern:       "Region   6 Needs More Proactive    Public Participation   Oversight
      Role"

              The draft report cites that the 2001 Performance Partnership Grant workplan
      states (1) how LDEQ should notify the public regarding permit actions, and (2) that EPA
      will continue to receive copies of draft permits for review and provide comments to
      LDEQ. However, the workplan does not require EPA to oversee the public participation
      process.

      EPAResponse:

      .Review       of public participation is inherent with EPA's oversight role of the permit
            program, but we agree that specifically stipulating this intent in the PPG
             document helps to clarify this point. EPA will do this in the FY03 PPG.

      .Although          not a regulatory requirement, Region 6 will also continue to participate
             in public events, such as public hearings, on an ongoing basis as resources and
             priorities allow.


                                                   13




                                                                   -
.-


     DIG Concern:     "Region   Oversight   Insufficient   to Note Public Participation
     Problems"

     EPAResponse:

     .We       disagree. Improving public participation has been a priority in program and
            management reviews. For example, this concern lead to the joint LDEQ and
            EPA workshops in Sulphur, Louisiana and Houston, Texas.


     DIG Comment: The report states that, "Region 6 has not performed a thorough on-site
     review of Louisiana's permitting system since LDEQ reorganized 4 years ago. While
     the Region has traveled to LDEQ to discuss specific issues, such as controversial
     permits, it did not do so for the air portion of the mid-year and
     end-of-year reviews. (We were aware of such on-site end-of-year reviews performed
     by Region 6's Water Division.)"

     EPAResponse:

     .EPA         expects to conduct an on-site End-of-Year (EOY) review in October 2002
            for LDEQ. As mentioned earlier, we will consider a thorough review of
            Louisiana's air permitting program to evaluate the effectiveness of the new
            procedures for public participation and records management once the new
            procedures have had a sufficient amount of time to be evaluated.

     .It      should be noted that different statutory programs require different types of
            program review, so comparison among different program reviews is not always
            accurate or meaningful.

     .In       regard to the finding that program reviews have been limited, EPA provided
            information about numerous forums for program reviews in the past. EPA has
            conducted monthly air permitting conference calls, midyear and EOY reviews,
            and have held several management meetings. Additional, we provided you
            information that illustrated 300;0 of the permit oversight travel funds went to
            meetings with LDEQ officials in FY02 regarding oversight activities.


     DIG Concern:    Region 6 staff did not attend LDEQ public hearings.

     EPAResponse:

     .Regional         permit staff have attended several public hearings, based on the
            complexities of the permit issues. For example, EPA attended the hearings for
            Shintech, Entergy, Borden, and Dow.


                                                  14
r




     OIG Concern:      "Region   6 Disinvesting   in Resolving   Excess   Emissions    Concern"

            The OIG draft audit report cites that EPA identified and documented a problem
    in 1998 with the LDEQ's regulations for startup, shutdown, and maintenance events
    and Region 6 has been unable to resolve the issue with LDEQ. The report states that
    in the Region's 2002 Memorandum       of Agreement with the Office of Air and Radiation,
    the Region said resolving this difference with LDEQ is a lower priority and they plan to
    disinvest in the effort.


    EPAResponse:
    .There           has been an ongoing effort to respond to these types of emissions.   The
             Region invested considerable    effort in working with LDEQ to strengthen their
             excess emissions rule. The effort culminated in numerous letters and
             discussions during calendar year 1998 thru mid 2002. On June 4, 2002, the
             LDEQ provided a letter for EPA's evaluation on a more robust approach for
             addressing and controlling startup and shutdown emissions.     Region 6 expects
             to work with the LDEQ in the future on such approaches.

    .In          the Region's judgement, and in light of resource constraints, the state
              appropriately  has assigned a higher priority to nonattainment SIPs. During the
              development of the Memorandum         of Agreement for 2002, we did identify our
              disinvestment   of resources in further policy and legal review of this issue based
             on the State's response.     Our investment in Louisiana was in the reclassification
              of Baton Rouge, working with the State in their development of its Baton Rouge
             ozone attainment demonstration       SIP, and our review of this SIP (received on
             December 27, 2001) and Federal Register actions (9 separate notices) relating
             to the new attainment demonstration.

    .Nonetheless,          accomplishments   in resolving excess emissions     are also achieved
           through EPA/State participation as part of the Nationallndepth       Refinery
           Initiative, which promotes voluntary emissions reduction.



    OIG Concern:      "Region    6 Has Reviewed    Fewer   Permits"

              The OIG report states, "Region 6 has reviewed significantly fewer permits over
    the past 4 years. According to Region 6, it has reviewed fewer permits because
    priorities have shifted and turnover has been high in the Air Permits Section. The
    Office of Air and Radiation's National Program Guidance for fiscal 2002 stated that all
    of EPA's 10 regions should, among other things, review at least 10 percent of the
    Title V operating permits proposed by states and local permitting authorities.    For fiscal
    2002, the Region-in an investments/disinvestments      chart-indicated  it does not plan to
    review at least 10 percent of Title V operating permits, and is reducing the number of



                                                   15




                                                                      -
.J   ..




          formal mid-year     reviews."


          EPAResponse:
          .Region            6 has continued to meet the Headquarters      goal of reviewing 10% of the
                    operating permits.     It should be noted that the scope of a review can vary based
                    on specific issues. The Region 6 MOA investment/disinvestment          chart for fiscal
                    year 2002 illustrates what EPA will have to invest in during the course of the year
                    and likely activities that may have to be disinvested as a result. The intent of the
                    chart is to inform national program offices of the decision making workload
                    issues that we will be facing. National priorities for FY03 emphasize Title V
                    permit issuance versus a specific percentage goal. Our current review strategy
                    for FY03 for Louisiana includes the review of Title V permits for facilities located
                    in non-attainment    areas and that involve netting or offset requirements.

          .In         regard to the concern of disinvesting  in oversight, the February 21, 2002,
                  Interim Grantee Compliance Assistance Initiative Policy (Amending EPA Order
                  5700.3 and OGD GPI 98-6) directs an on-site review of 5 -10% of the Region's
                  grantees.    The Region 6 air program initiated a strategy in 2001 to conduct on-
                  site visits on a rotating schedule such that all states have an on-site mid or end-
                  of-year review every 2 years.



          DIG Recommendation         3-1: The DIG's draft report recommends that the Region 6
          Administrator   require staff to review public participation issues related to LDEQ's Title V
          permits, including reviewing comments to LDEQ-proposed           Title V permits prior to
          LDEQ's issuance of final permit.

          EPAResponse:
          .We          agree. As indicated    in the above comments,    we are reviewing   public
                  participation issues.



          DIG Recommendation         3-2: The DIG's draft report recommends that the Region 6
          Administrator   require staff to clearly define what part of the Region's organization is
          responsible for addressing Title V public participation    oversight and how such oversight
          will be conducted.

          EPA Response:

          .This         responsibility has already been defined. The Air Permits Section of the
                  Multimedia Planning and Permitting Division is responsible for this oversight.




                                                          16




                                                                        -
I   .,.




          DIG Recommendation       3-3: The DIG's draft report recommends that the Region 6
          Administrator require staff to perform a thorough on-site review at LDEQ of the air
          permits program, including records management and public participation.


          EPAResponse:
          .We         will review LDEQ's air permits program, records management,             and public
                 participation   in the FY02, 03, and 04 program reviews.



          DIG Recommendation         3-4: The DIG's draft report recommends that the Region 6
          Administrator   require staff to establish a system for tracking the permits reviewed by
          state and facility name, and include the comments it makes for each permit reviewed
          and how it resolved the comments.


          EPAResponse:
          .In       March 2001, the Region established a database that tracks the Nonattainment
                 New Source Review, Prevention of Significant Deterioration,    and Title V permits
                 that we have reviewed.   The database contains the draft permits, and supporting
                 documents, e.g. fact sheets, comment letters, and correspondence      between the
                 Region and LDEQ. We will develop a format for gathering all comment letters
                 electronically and ensure consistent dat input for each State.


          CHAPTER    4: "Other   Matters"                                                                     ;



          DIG Concern:    "LDEQ's    Title   V Air Permit    Backlog   Continues   to Grow"

                The draft audit report states that LDEQ's Title V air permit backlog          is very large
          and continues to grow.

          EPA Response:

          .Louisiana        is average for issuance of Title V permits. National statistics, as of
                  March 31, 2002, on initial Title V issuance rates indicate that the average
                  issuance rate is 70%. Louisiana has issued 66% of their initial Title V permits.

          .We        have been in constant communication     with LDEQ regarding their initial Title
                 V permit issuance rates and a need for a schedule that would address how they
                 plan to issue their remaining permits. The LDEQ has submitted a schedule and
                 committed to issuing all Title V permits by December 2003.




                                                            17
I   .,




         DIG Concern: The draft audit report cites that the Region did not use the Performance
         Partnership Grant (PPG) to require LDEQ to timely reduce its air permit backlog.

         EPAResponse:

         .Because        the PPG concerns federally funded programs and Title V is funded
               through private permit fees, the PPG grant is an inappropriate tool for the Title V
               program. While we can include title V provisions in a PPG, we cannot require
               them since the Title V program is funded through LDEQ's permit fees, not a
               federal grant to the state. Title V does provide for implementation agreements,
               and these can be the appropriate mechanism for addressing permit backlogs.


         DIG Concern:     "Inspection   Problems   Noted"

                 The draft report states that "EPA inspectors found that one facility had four lines
         (pipes) used in production that were disconnected and open to the atmosphere," and
         that the LDEQ inspection had not identified this discrepancy.

         EPA Response:      The following facts should be noted in regard to this statement.

         .The        LDEQ inspection occurred 5 months prior to the EPA inspection, not 3
                 months as noted in the draft report. The problem mayor may not have been
                 occurring at the time of the LDEQ inspection.

         .Two         inspections were keynoted in the GIG audit report. The EPA inspections
                 were of a broad scope and covered several process units which included leak
                 detection monitoring. By contrast, the scope of the LDEQ inspections was
                 focused on a specific process unit and not leak detection. GIG is making
                 comparisons of inspections having different focus (i.e., apples and oranges).


         DIG Concern: The draft report states, "The other facility had a higher leak detection
         rate (fugitive emissions) than reported by LDEQ." [Emphasis added.]

         EPAResponse:

         .This         statement is in error and is a misquote of the EPA inspection report which
                 states, on page 7, "The leak rate monitored by this inspector is higher than that
                 reported to the LDEQ." [Emphasis added.]


         DIG Concern: The draft report states, "Both facilities appeared to be in violation of
         federal regulations, according to EPA's inspection reports, but LDEQ had not reported


                                                      18
,   ..',.


            any recent violations."
            EPAResponse:                                                                                   .


            .This         is incorrect since both LDEQ inspection reports identified areas of concern
                    or errors.

            ."Violations"        are determined after the review of inspection and other data; it is
                     improper to identify "violations" in an inspection report.


            DIG Concern: The draft report states, "LDEQ inspectors said LDEQ management told
            them to refer to violations they observed as 'areas of concern'."

            EPAResponse:

            .It        is the policy of LDEQ air surveillance inspectors to identify areas of concern
                    arising from their ob~ervations during an air inspection. It should be noted that it
                    is also the policy for EPA surveillance inspectors to identify potential 'areas of
                    concern', not violations as evidenced in the EPA inspection reports.


            DIG Concern:     "Region 6 Has Not Performed       a Fee Audit of LDEQ"


                  The DIG's draft report found that EPA Region 6 has not performed an audit of
            LDEQ's permit fees.

            EPAResponse:

            .That         is correct; Region 6 has not conducted such a review in Louisiana since
                    their program was approved in 1995.

            .Louisiana's         approved Title V regulations require that they collect a fee sufficient
                    to cover the permit program cost. They are not required to use EPA's
                    presumptive fee. At the time of program approval, the state submitted and EPA
                    approved LDEQ's demonstration that the fee selected would result in the
                    collection and retention of fees necessary to support their program.

            .We         plan to perform a fee audit for Louisiana's Title V program during FYO3.




                                                         19




                                                                                               ",""'"          ,...,""_.",""""J
                                                   State of Louisiana
                                           Department of Environmental                 Quality

           M.J. "MIKE" FOSTER,JR.                                                                            J. DALE GIVENS
                    GOVERNOR                                                                                   SECRETARY


                         June 14,2002


                         John T. Walsh
                         Acting Assistant Inspector General for Audit
                         Office of Inspector General
                         U. S. Environmental Protection Agency
                         1445 Ross Avenue, Suite 1200
                         Dallas, Texas 75202-2733

                         Dear Mr. Walsh:

                         This letter is the preliminary responseof the Louisiana Department of Environmental
                         Quality (DEQ or DEQ) to the Draft Audit Report titled Louisiana's Air Permitting
                         Program Needs to Better Address Public Participation Concerns, dated May 15,
                         2002. The fieldwork for the audit was conducted at DEQ from approximately May
                         2001 through January 2002. According to the draft report, OIG is not finished with
                         its audit. It plans to conduct additional audit work on one of tlte three original
                         objectives.

                         Let me say first and foremost that I am extremely disappointed that the audit did not
                         proceed in accordance with the engagementletter dated April 17, 2001 (Attachment
                         1). While OIG staff did keep DEQ updated through monthly meetings during the
                         summer of 2001, your staff abruptly discontinued these meetings in the fall of 2001.
                         This shows that, in contradiction to the engagementletter, you and your staff did not
                         establish and maintain a collaborative working relationship with DEQ staff to result
                         in an objective assessmentof Louisiana's air permitting process. Also, this draft
                         report draws broad conclusions based on very little relevant, factual information and
                         displays an obvious lack of understanding on the part of the auditors of our processes
                         and procedures.

                         Secondly, I am bothered by the fact that over a year after the audit began, we find
                         out through the draft report that one of the three objectives hasn't even been
                         addressed. At what point did you decide to split this audit into two audits? Why
                         have you chosen to proceed with drafting a report on two of the objectives instead of
                         completing all the work to produce one audit report as was expected and agreed
                         upon? The issuance date for this draft report has slowly "slipped" from its original
                         target of fall 2001, therefore I do not understand why you could not take a little more
                         time to complete the original audit as defined in the letter of engagement.




         .n.        OFFICEOFTHE SECRETARY P.O.BOX82263 BATONROUGE,LOUISIANA 70884-2263
          ..TELEPHONE
       recycled
              paper                         (225)
                                      AN EQUAL  765-0741 FAX
                                               OPPORTUNITY   (225)765-0746
                                                          EMPLOYER                                                     ~~SOYOI.~


"".~   ~      ,.,~,...                                                                                                  '"""-."'..-,
                          DEQ Responseto EPA I OIG Public Participation Draft Audit Report
                          June 14,2002
                          Page 2



                          It is most unfortunate that no mention was made in the draft report of the tremendous
                          progress that has been made in Louisiana for reductions in air pollutants, and
                          particularly that most of that progress was made by the state prior to the
                          implementation of any federal requirements. DEQ's Toxic Air Pollutant program
                          undeniably has been responsible for huge reductions of emissions during the last
                          decade (over 58%). Based on this glaring omission and other facts, I am of the
                          opinion that aIG had preconceived biases upon entering this audit, and will point to
                          a number of areas in the report that substantiatethis belief.

                          The title of the draft report, Louisiana's Air Permitting Program Needs to Better
                          Address Public Participation Concerns, is inappropriate at best and serves only to
                          fan the flames for those who would say that DEQ is not meeting its responsibility
                          under the statutes and regulations. The title of the report should tell the reader what
                          the subject matter of the report is, not what conclusions are drawn in the report.
                          Since this was portrayed as an audit of DEQ ~ EPA, it would appear that there
                          should at least be some mention of EPA in the title. An acceptabletitle might be An
                          Evaluation of Public Participation Opportunities in Louisiana's Air Permitting
                          Program and EPA Region VI's Oversight of the Program. If you feel that the title of
                          the report is in fact an appropriate place for conclusions as opposed to subject matter,
                          then I would suggest the more important but unfortunately all-but ignored
                          conclusion in the report, Louisiana's Air PermittinJ! ProJ!ram Meets Federal and
                          State Public ParticilJation ReQuirements.

                          Response to Introduction    (Chapter 1)

                          The entire first chapter of the draft report attempts to provide a background of the air
                          permits program from a national perspective. While this information may be helpful
                          for readers who lack program knowledge, I feel that your efforts to characterize the
                          State of Louisiana using industrial and health related issues is misleading because
                          you failed to include readily available, substantive,Louisiana specific data.

                          The Toxic Emissions Data Inventory (TED!) is a state databasecomprised of the air
                          emissions of the 200 most toxic air pollutants (TAPs) from major and once major
                          sources. The first 100 TAPs were included based upon emission levels in the state,
                          human health effects, population exposed, and persistence in the environment. The
                          second 100 were added to include the entire list of federal hazardous air pollutants.
                          Based on the TED!, total TAP emissions attributable to industrial sources have
                          decreased by over 58% from 1991 to 2000. Benzene emissions, a known human
                          carcinogen, have been reduced by over 78% as reported to the TED!. The draft
                          report does not recognize the substantial progress Louisiana has made in reducing
                          TAPs over the last decade.




-",.."-_"""""°.,_"'",""                                                                                              ,_..,,"_.;1.i~d
                   DEQ Responseto EPA I OIG Public Participation Draft Audit Report
                   June 14,2002
                   Page3


                   The report went further to attempt discussion on the ozone standard. While the u.s.
                   Environmental Protection Agency has published its intent to reclassify the five-
                   parish Baton Rouge area as being in severe violation of federal ozone standards,this
                   won't take effect until mid to late September of 2002. By that time, it is expected
                   that EPA would have completed its review and granted approval of the state's new
                   air-pollution-control plan. If the state's plan is approved, the area could avoid being
                   bumped-up from the serious categoryto severe.

                   Regulation by the DEQ has resulted in substantialimprovements in air quality since the
                   inception of such regulation in the early 1970s. Of the 17 parishes that were
                   designated non-attainment for the pollutant ozone following enactment of the 1990
                   Clean Air Act Amendments (CAAA), 12 have been redesignated to attainment. In
                   the remaining 5 parishes, which comprise the Baton Rouge non-attainment area,
                   there has been marked improvement noted by reduction in both the number and
                   magnitude of ozone exceedances. In the last ozone season(April -September 2001),
                   the entire five-parish ozone non-attainment area experienced only one exceedanceof
                   125 parts per billion (1 part per billion above the standard) at the Bayou Plaquemine
                   monitoring site in Iberville Parish.[See Attachment 2, Baton Rouge Area Ozone
                   ExceedanceDays Design Value and Average Design Value bar graph].

                   I am concerned by your use of statistics when making references to cancer rates in
                   Louisiana, even though this information is not relevant to the two questions posed on
                   page 1 of the draft report. The audit set out to determine if DEQ's air permitting
                   program allows for effective public participation and if EPA provides effective
                   oversight to the state program. Nevertheless, in your review of health data, it is
                   obvious that you failed to perform an adequatereview of relevant studies with regard
                   to national and state specific cancer issues. Dr. Vivien Chen and her colleagues at the
                   Louisiana Tumor Registry in New Orleans have extensively studied the issue of cancer
                   in Louisiana.

                   Cancer is a common diseaseaffecting one of every three people in the United States.
                   Using data from the Louisiana Tumor Registry, Dr. Chen evaluatedthe incidence rates
                   for cancer in South Louisiana and specifically in the river parishes of the industrial
                   corridor between Baton Rouge and New Orleans. The results of her studies show that
                   people living in this area are not more likely to develop cancer than the national
                   averages.The study showed: "Cancer incidence rates for the Industrial Corridor are
                   either similar to, or lower than the combined rates for most of the common cancersas
                   well as for rare tumors."

                   While the incidence rate of many cancers is lower than the national average for that
                   cancer,the incidence rate for lung cancer in white males (but not in any other group) is
                   higher than expected. As a result, researchis being done to specifically look at what
                   factors may be contributing to lung cancer in white males. Research studies by Dr.




-,,-,,--,.~   ~,    io",_""","""","'c"'"                                                                 "C".,,'_.""".,,"""""'.."   ~
DEQ Responseto EPA / OIG Public ParticipationDraft Audit Report
June 14,2002
Page4


Vivien W. Chen and associatesof the Louisiana Tumor Registry, recommend that
any effective cancer control program must emphasize and be directed towards
prevention and cessation of tobacco use. [Reference: Journal of the Louisiana State
Medical Society, Vol. 150, April 1998J.

According to the Centers for Disease Control and Prevention Data for 2001, the
District of Columbia ranks the highest in overall cancer mortality rate per capita
among the 50 states and Washington, D.C. from all types of cancer, and its lung
cancer rate is 7.2 percent higher than the national average. The Washington D.C.
area, the United States Capital and Headquarters of the Environmental Protection
Agency (EPA) is an attainment area and not highly industrialized, yet ranks the
highest in overall cancer mortality rate.

Mr. Nuruddin Jooma, an epidemiologist and medical student at Tulane School of
Medicine, Ms.Christine Romalewski, the epidemiologist supervisor, and Ms. Joan
Bostell, a statistician with the State Center for Health Statistics, Louisiana Office of
Public Health, conducted a study entitled "WHICH PARISHES ARE MOST
HEALTHY".        The study considered twenty-one factors including Age-adjusted
Cancer Mortality Rate, Age-adjusted Heart Disease Mortality Rate and Cancer
Incidence Rate.

Based on the 21 health indicators, the highly industrialized parish of Ascension, in
the non-attainment area and ranked Number 1 in 1998 Total Releases to Air of
18,539,138 pounds from 18 reporting facilities (Louisiana Toxic Release Inventory
Report 1998) was determined to be the parish which was the most healthy. The
industrialized parishes of Assumption, Calcasieu, and Caddo were also given a
Number 1 ranking for the most healthy parishes. The least healthy parishes were the
rural parishes that border the state of Mississippi and Orleans Parish. [Journal
Louisiana State Medical Society, VOL 149 October 1997J.

ResDonseto Public Participation Issues (Chapter 2):

As the draft report states on page 5, DEQ meets the state and federal public
participation requirements for air permitting. Little time is spent on this important
fact, but file room issues are extensively discussed.

The draft report made referencesto the way in which DEQ numbers its facilities and
permitting actions. The fact that the auditors found our numbering systemconfusing
does not make it wrong or bad. The Agency Interest (AI) number is location specific
and refers to an individual site, facility, portable source, area source, parish, person
or organization. If a company has more than one facility in Louisiana, each location
will have its own unique AI number. A particular company may be issued many-~--~..




                                                                                           ""'.""--"..,~,,-""
           DEQ Responseto EPA I OIG Public Participation Draft Audit Report
           June 14,2002
           Page 5



           different permits, each with its own permit number. The same AI number will
           reference each permit at a particular facility.

           The historical tracker or review number refers to a particular task to generate a
           permit, variance, exemption and so on. The conversion of DEQ to the TEMPO
           system has caused the tracker number to be replaced with the Tempo activity
           number. Permit numbers are required to be entered into the EPA's databases,along
           with other facility specific information.

           Prior to re-engineering, each DEQ environmental program (media) maintained
           records in several disparate paper filing systems (at last estimate, DEQ's records
           consisted of over 25 million pages). There was no continuity between any of the
           filing systems, some of which were inherited from other agencies when DEQ was
           first created. In fact, retrieving records on a facility required visiting multiple file
           rooms or placing public records requests with the custodian of record for each media.
           Review of records was limited to one individlJal at a time.

           The imaging project began in 1998, and in April 2000, DEQ hired a full time
           Records Manager and established a Records ManagementSection. During Fall 2001,
           we studied the public's use of ALPSTM.Visitors complimented Records Management
           staff, ALPSTM, and our initiative in studying their needs. While the design and
           implementation of a comprehensive records management program for DEQ is a
           work in progress, many significant accomplishments have already been achieved.

            DEQ continues to work on the consolidation of all electronic data and records into
           one integrated system. The Air Quality file room is in the process of being digitally
           imaged and incorporated into the DEQ electronic document management system
           (EDMS). This will improve the organization, integrity, and accessfor the records.
           Our accomplishments to date include:

               .Through      the imaging project, all DEQ facility files that have been imaged are
                   now accessible from a single system..
               .In    October 2000, DEQ established the Public Records Room for use by the
                   general public with computer workstations configured to search the DEQ
                   electronic document management system (EDMS). Staff is on duty Monday
                   through Friday, 8:00 a.m. to 4:30 p.m. to provide personalized help with
                   searching for records and/or completing public records requests. On average,
                   150 people per month visit the Public Records Room.
               .The      Records Management Section is the point of contact for all public
                   records requests. Last year, over 2000 public records requests were received
                   and filled by DEQ.




",""",-,                                                                                              i;..~",iJi'JC
                DEQ Responseto EPA / CIG Public ParticipationDraft Audit Report
                June 14,2002
                Page6


                          .To       better understand EDMS users' needs, a recent study was conducted to
                                compare the information needs of the DEQ user to the non-DEQ user.
                                Findings from the study are being used to develop a user-friendly Internet-
                                based searchtool. A key finding of the EDMS user study revealed that non-
                                DEQ users who relied on assistance from Public Records Room staff were
                                successful in finding the records they sought.

                During one of the telephone status calls that were held in the summer of 2001, DIG
                staff raised specific issues regarding the availability of files for public review outside
                of normal business hours. When the same question was posed during that
                conference call to Ms. Jole Luehrs, then the air permitting chief for Region 6, she
                indicated that EPA had never done that and had no intention of doing that. While
                not making the physical files available after hours, DEQ has several initiatives on the
                horizon. An Internet-based EDMS search tool that will greatly increase access to
                DEQ public records is currently in the Beta-test phase. This will allow the public to
                review DEQ files from their living rooms on a 24/7 basis.

                As part of its public participation process, DEQ sends permit materials to local
                public libraries via certified mail. Libraries are required to return an
                acknowledgment form to indicate that they have received the information and that it
                is available for review by the public. If we are notified that material is missing, we
                replace it as soon as possible. When responding to complaints of material not being
                in a library, we have found that in most cases,the material was actually there, but not
                all library employees were aware of its existence. While DEQ is required to send
                this information to the libraries, there is no statutory or regulatory requirement for
                the libraries to make the information available. DEQ has been working with the
                state library associationto determine how improvements can be made in this process.

                To our knowledge, there has never been a denial of a public hearing where there has
                been a significant public interest in a hearing and where the issues could not be
                sufficiently addressedwithout a hearing. On many occasions,DEQ has proactively
                scheduled public hearings without having received a request from the public to do
                so. These hearings are scheduled becauseDEQ feels that significant interest in the
                project exists.

                A public hearing is not the only way DEQ receives input and addressesconcerns
                from the public regarding draft permitting actions. DEQ attends town meetings
                where permit applications are discussed, and responds to all written and oral
                comments received during the comment period. In addition, DEQ routinely extends
                or reopens comment periods when there is significant public interest in a permitting
                matter.




-.-'"."   ".".."..",d""
                 DEQ Responseto EPA I OIG Public ParticipationDraft Audit Report
                 June 14,2002
                 Page 7



                 The draft audit report goes into some discussion on the potential appearanceof bias.
                 Agency staff must constantly communicate with regulated facilities, EPA and other
                 governmental entities, citizens' groups, and individual citizens. Our staff deals with
                 these individuals and groups on a daily basis and while all of the parties may not
                 always be in agreement, there must be a certain level of cordial, professional
                 behavior that is exhibited.

                 DEQ Policy Number 009-94, dated August 15, 1997, mandates the behavior of the
                 Hearing Officer. While we have no specific written policy for the other employees'
                 conduct at a public hearing, they are expected to presentthemselves in a professional
                 manner during any work related situation. All employees that meet with the public
                 will be reminded of the appropriate behavior to be displayed at meetings.

                 I would like to point out that at this same hearing referenced in the draft audit report,
                 an EPA Region 6 official was observed to be laughing and talking with members of
                 a citizen's advocacy group in what might be construed as an overly friendly manner.
                 Does this constitute grounds for recusal of that individual, or does it just point out
                 the fact that as considerate, professional public servants, we should be cordial to
                 people that we know and polite to all members of the public.

                 Contrary to the findings in the draft report, DEQ's Public Participation Group is
                 dedicated to processing public notices of permit actions and organizing and
                 conducting hearings. The job descriptions and job duties of the Public Participation
                 Group are well documented. The staff uses written standard operating procedures
                 that clearly state their roles and responsibilities, as well as processesand procedures
                 to be followed. At least annually, employeesparticipate in an appraisal and planning
                 process to develop performance expectations regarding their various duties. Staff
                 members are well informed of their individual, as well as group roles and
                 responsibilities.

                 The draft report specifically references the discontinuance of a certain database that
                 was used to track the comments received on permitting actions. The database that
                 was being managed kept track of individual public comments -a responsibility of
                 the permit writer and not the public participation staff. The duty of the comment
                 database manager is to record the name and addressof the commenter0 The permit
                 writer and comment database manager stay in contact during the public comment
                 period and at the close of the comment period, the permit writer ensures that all
                 comments have been accountedforo

                 The permit writer, as part of preparing the final permit decision, will prepare a
                 Responseto Comments document that summarizes each comment that was received
                 and provides a response indicating how the draft permit deals with that issue. The
                 comment database is then used to generate mailing labels used to notify all the




__.0-   '"'.""                                                                                               ,l..,.-.
              DEQ Responseto EPA / OIG Public ParticipationDraft Audit Report
              June 14,2002
              Page8


              commentors once a final permitting decision is rendered. The comment database
              manager ensures that the Permits Administrator is fully advised of any comments
              requiring immediate attention. DEQ is not aware of a "disconnect" that is preventing
              timely public notice and opportunity to comment where required by laws and
              regulations.


              DEQ management is not interested in expanding the "role that the public
              participation group could perform." This group performs the ~function             for
              which it was created. That is not to say that some of the suggestedfunctions are not
              already being done. For instance, the Office of Environmental Services has
              participated in a number of workshops and presentations with the EPA Region 6
              staff that were designed to provide outreach to local communities and individuals
              regarding air permitting issues. The DEQ has other functional areas that include: an
              Ombudsman, the Community Indu'stry Relations Group, the Recycling and Litter
              Group, and the Communications Group. All of these have a public outreach function
              as a major component of their jobs.

              The Community Industry Relations Group organizes forums aimed at involving
              citizens of the state in the environmental regulatory process. The CIR Group has
              used the National Environmental Justice Advisory Council's Public Participation
              model to increase citizen participation in the regulatory process. The CIR Group has
              organized panels composed of industry representatives and individuals directly
              impacted by industrialization. The purpose of these panels is to open dialogue
              between industries and communities, identify issues of concern, and address (and
              hopefully resolve) such issues of concern via the identification of individuals with
              expertise with such issues. Panel participants also learn more about the permitting
              processand the DEQ's legislative regulatory role in the permitting process.

              The CIR Group has undertaken numerous other projects to involve the citizens in the
              regulatory process. Using Pollution Prevention Grants offered by the U.S. EPA, one
              community was able to have monitors, installed around their community, hire an
              independentenvironmental scientist to interpret the data obtained from the monitors,
              and help citizens understand the contents of the air in their community.

              The CIR Group has helped community groups organize and secure tax-exempt status
              to apply for grants. The CIR Group has conducted surveys to gauge the
              effectiveness of the CIR panels and has asked citizens for their input in a continuous
              effort to improve the process.-,~,."




~"--"-,_.,,                                                                                            ",,"   ,..,-
                                                                                                                    """"1




                    DEQ Responseto EPA I OIG Public Participation Draft Audit Report
                    June 14,2002
                    Page9


                    DEQ endeavorsto make all of our air permits as clear and understandableas possible
                    while still meeting all requirements of the Title V program. There is no legal
                    requirement for states to issue a single Title V permit for each facility. Drafting a
                    single Title V permit for a large facility would be extremely difficult to do. The
                    average Title V permit issued in the State of Louisiana is from three quarters of an
                    inch to an inch and a half thick and some are in excess of three inches thick. In
                    addition, each permit application is from three to five inches thick. Using these
                    numbers, the total thickness of documents associated with each Title V permitting
                    decision per company can be predicted:




                    Chevron Chemical Co.,
                    Belle Chasse             2          1.5                6                  7.5
                    ConocoInc.,Westlake      6          4.5                18                 22.5
                    Dow Chemical Co.,
                    PIa uemine               28         21                 84                 105
                    ExxonMobil Co., USA,
                    BatonRou e               55         41.25               165               206.25
                    Marathon       Ashland
                    Petroleum         LLC,
                    G ville                  5           3.75              15                 18.75
                    Motiva     Enterprises
                    LLC, Convent             1          0.75               3                  3.75
                    Motiva     Enterprises
                    LLC, Norco               19          14.25             57                 71.25
                    Rubicon,Inc., Geismar    8           6                 24                 30
                    Tosco (BP Oil), Belle
                    Chasse                   20          15                60                 75
                    Westlake
                    Petrochemical,SuI hur    1          0.75               3                  3.75
                    Totals                   145        108.75             435                543.75

                    *      Projectedpermitsper companyreportedin audit reportTable 1,Page11
                    **     Projectedpermits per companytimes0.75 inchesper permit
                    ***    Projectedpermitsper companytimesthreeinchesper application
                    ****   Sumof permitand applicationthickness

                    LAC 33:ill.531 gives the public thirty days to review and comment on draft permits.
                    LAC 33:ill.533 allows EPA forty-five days for the same review. As an example, if
                    DEQ aggregatedall the Title Vs from Dow Chemical Co., the permit and application
                    together would occupy a stack of paper in excessof eight feet high. For ExxonMobil
                    Company, the stack would be over seventeen feet tall. It would be impractical to
                    expect EPA and the public to review this amount of material in the time allotted.




-.-""-""   ,   ".                                                                                           "   "   ""'"
DEQ Responseto EPA I DIG Public Participation Draft Audit Report
June 14,2002
Page10


Section 5 of the Louisiana Emission Inventory Questionnaire (EIQ) for Air
Pollutants lists a summary of emissions for the entire plant as a whole. This
document is put on notice with each draft permit. Aggregating all permitted
emissions on each individual permit is impractical. If the company changed the
emissions in one permit, then all issued Title Vs would have to be modified to
change the emissions to match. Likewise, if all permits were listed in each Title V,
all issued Title V s would have to be revised to match the latest list.


Resoonse to EPA Oversil!ht Issues (Chaoter 3)

DEQ has maintained open and clear lines of communication with Region 6 EPA. All
mid-year and end-of-year report deadlines (concerning PPG commitments) have
been met and comments from the Region 6 office have been addressedappropriately.
DEQ would appreciate any information on specific deadlines/commitments that have
lapsed without being addressed by executive management of both Region 6 and
DEQ.
"Partnering" with the states by EPA is the hallmark of the Performance Partnership
Grant (PPG). The final rule governing this activity becameeffective January 9,2001,
and may be found in the 40CFRPart 35, § 35.100 -35.138.            This represents a
cultural shift in the environmental grant administration process. EPA Headquarters
appearsto enthusiastically support this shift. However, while management at Region
6 is supportive of the PPG concept, some of the staff does not seemto be receptive to
the provisions of the PPG rules.

    § 35.130 describes the purposes of the PPG. PPG is designed to:
        .Strengthen partnerships between EPA and state agencies
        .Provide    state flexibility to direct resourceswhere needed
        .Link    program activities with goals and outcomes
        .Foster innovative approaches
        .Provide    savings by streamlining administrative requirements

The "partnering" philosophy or approachprovides for a more innovative culture and
management system between EPA and the state agencies. This sentiment is
expressed and supported by Governor Whitman in her comments made to EPA
senior managers and reported in the ECOS Weekly Issues Report, dated May 17,
 2002.
                     ,




               J;.
     DEQ Responseto EPA / OIG Public ParticipationDraft Audit Report
     June 14,2002
     Page11


     Response to other Matters (Chaoter 4)

     As of 6/11/2002, DEQ has 294 remaining initial Title V permits to issue. For the
     year 2001, DEQ issued 51 new Title Vs. Of that number, 37 were initial Title Vs
     (application received by October 16, 1996). During that year, we also issued 117
     Title V modifications, 556 state permits, 17 Prevention of Significant Deterioration
     permits, 4 acid rain permits, 6 Banking actions, 233 small source emissions, 346,
     variances, 349 name/ownership changesand 323 others, a total of 2002 actions.

     In the past, we have been concentrating our efforts on issuing new Title V s and
     modifications associated with new projects. Recently, we have begun re-
     concentrating our efforts on reducing the initial Title V backlog and will strive to
     meet the December 2003 deadline.

     In the opening paragraphof this chapter, it is stated that sufficient work has not been
     performed to reach conclusions about the Department's inspection and enforcement
     process. The last section of the chapter is entitled "Conclusions". The report
     proceeds to conclude that among other things there were problems with DEQ's
     inspection process. According to the report, this conclusion seemsto center around
     3 areas: inspection findings, use of the term "area of concern" versus "violation",
     and time spent on inspections.

     Two inspections performed by the EPA found a few open-ended lines and some
     higher fugitive emission rates for components than DEQ inspectors had found on
     earlier inspections. This is hardly enough information upon which to draw the
     conclusion that there are problems with DEQ's inspection process. There are
     thousands of lines and components in most of these industrial facilities. Inspectors
     simply cannot inspect all of these components and lines. Past experience has shown
     that DEQ could probably go back behind EPA inspectors and find a few leaking
     components that EPA didn't inspect or a few open-endedlines the inspectors missed.
     DEQ would certainly not conclude that there is a problem with the EPA inspection
     efforts from such a finding, especially based upon the small sample size.

     The EPA provides guidance to states and local governmental agencies on how to
     conduct inspections. These guidance procedures are posted on the EPA's web site
     and DEQ management has provided training and directives that encourage field
     surveillance staff to follow them. The guidance states that the inspection report
     should identify "all areas of regulatory concern" and that the inspector is to avoid
     making statements using the word "violations." Doing so would mean that the
     inspector was making an institutional decision without using the system of checks
     and balances built into the enforcement review process.




,,""_..~._.,...                                                                                .,,~ J.,aiiii!..".c
          DEQ Responseto EPA / OIG Public ParticipationDraft Audit Report
          June 14,2002
          Page12


          The role of the inspector is to investigate, prepare a report and serve as the
          Department's "witness of fact".         The EPA guidance is very clear on this. The
          inspector is not to be put into a position of being both the "cop and the judge." It is
          usually the compliance program or legal counsel that determines if there is sufficient
          documentation of a violation. Emotional or personal bias of the field investigator
          must be avoided and a system where there is a division of job roles and
          responsibilities, as is the case in the DEQ, easily prevents this.

          Adequate time spent on inspections is important and there is no doubt that spending
          more time on inspections would result in more meaningful results. With the
          resourcesprovided, the DEQ has endeavoredto maintain its inspection level of effort
          in order to satisfy demands of both Federal and State law, and the EPA grant
          milestones. The DEQ's compliance monitoring strategy explicitly recognizes that a
          variety of monitoring inspection tools ranging from self-certifications, deviation
          reporting, stack testing reports, monitoring reports, and on-site inspections are
          available and should be used to evaluate compliance. The EPA Compliance
          Monitoring Strategy (CMS) published in April of 2001 recognizes that there are
          times when a partial compliance inspection may be appropriate and that a full
          compliance inspection is not practical.

          DEQ management has provided field offices with the EPA CMS guidance and
          encouraged its use in planning inspections for the year. This has resulted in some
          inspections being partial reviews while others have been multi-media inspections
          lasting as much as 2 weeks. A point to be made is that whether the inspection is
          partial or full, there have been numerous referrals made to the enforcement division.
          Many of these referrals identify areas of concern considered to be high priority and
          that are entered into the EPA data system each month. The Enforcement Division is
          processingthese referrals into appropriate enforcement actions as quickly as possible
          when such action is appropriate.




          DEQ entered in to this audit with a spirit of cooperation and anticipation that we
          would obtain positive feedback and constructive criticism of our program. Our goal
          was to use the information provided to us to make improvements to specific areasof
          the program. Instead, while we were laboring to provide OIG with all information it
          needed, our staff was being asked "If you were king for a day, what changes
          would you make at DEQ?" by EPA personnel! The type of response that a
          question like this would elicit has nothing to do with what OIG said it came to audit.




~   , ,                                                                                             ".J.._"'-~
                                                                        ~             "




DEQ Responseto EPA / OIG Public ParticipationDraft Audit Report
June 14,2002
Page13


While DEQ acknowledges that its pemlitting process could be improved, we do not
agree with the conclusions and recommendations that have come out of this report.
Accordingly, we are not submitting an action plan for implementing those changes.
Likewise, EPA Region 6 should consult with DEQ before making 22!!!!!!itments !o
implement chan.2;esthat are not consistent with st~te and federal prOfl;ram
requirements.

In conclusion, I am proud of the accomplishments of the Louisiana Department of
Environmental Quality, especially as they relate to public participation. We are
fimlly committed to continuous improvement and will constantly strive to meet the
need of the citizens of the State of Louisiana. We will work cooperatively with the
staff of the EPA Region 6 to make further enhancements of our air pemlitting
program where appropriate while we continue our department-wide efforts to
improve accessibility of infomlation to the public.

Thank you for this opportunity to respond to your draft audit report.

Sincerely,



  ct,<f1L/J;;p--
J. Dale Givens
Secretary

MDV/mdv

Attachment




             8lh"
DEQ Responseto EPA I DIG Public ParticipationDraft Audit Report
June 14,2002
Page14




                                             Attachment 1---""".~~




      ,."""'","""""",,,""_.Jc""cc""c'",c,,                           j '~i'"
      ~..c                  ,    ~,         .~    c   c,,-v..,   "",      ,'"'   """""-'-M"                              'U.":""CC:oq:OC::3                         I-'Mls",                  L/::>


                            ~o~                       UNITED           STATES ENVIRONMENTAL                            PROTECTION             AGENCY
                      ..,1 Aft'...
                    ,.,.."ft           "'¥                                       OFFICE OF INSPECTOR GEN ERAL
                !           ~               '~                                         CENTRALAUDITDIVISIO~
                ~. ~                    ,.~                                           726 MINNESOTA AVENU=                                                    BRANCHOFFICES
                 ~                     «J'                                          KANSAS CITY KANSAS 66 ~O1
                      ?~,PRa'."-'"                                                                                                                1445
                                                                                                                                                     ROSS
                                                                                                                                                        AVENUE,
                                                                                                                                                             SUITE
                                                                                                                                                                 1200
                                                                                                913-551-7878                                         DAlLAS, TEXAS 75202.2733
                                                                                              FAX:913-551-7837                                                      214-6GS-66'21
                                                                                                                                                               FAX:21 4-1365-6589
                                                                                                                                                     999 1.9TH STREET. SUITE 500
                                                                                                                                                DENVER, COLORADO 80202-2405
                                                                                                                                                                    303-312-6872
                                                                                               ;\priI17,        2001                                           FAX: 303-312~


                                ~UBJECI: Engagementof auditor services for the audit oJ"the Louisiana ,'\if Pe:Tn1its
                                                                                                                    Process
                                (Assignment No. 2000-1351:)

                                The purpose of this memorandum is to confirDl our mutual understandingson the objectives,
                                scope.and responsibilities of the Region 6 Multimedia Plarming and Pennitting Division
                                (R6-PD), the U,S. EPA Office of Inspector General (OIG), and the u>uisiana Deparbnent of
                                Environmental Quality (LDEQ) during the audit,

                                Blj_ef DescriDtion ofT oQic

                                The Clean Ajr Act (the Act), as amended in 1990, gives EP A.authority to set and enforce
                                national s~dards to protect human health and fue environr'lent. Part of that respomibility
                                involves revie~ing and approving permits that limit the am,)unt of emissionsreleased into the
                                air, Draft permits are required to undergo public review and comment. Public participation
                                empowerscommunities by providing citizens ~'ith jnfonnalion to enable them to develop
                                infonnoo opinions regarding E-"nvjronmental issues in their communities. Citizens' rights to be
                                protected ftom significant riskS to human health and the natural en"\ironment may bejeopardized
                                ~.hen there is not an effectively implemented public participation process.

                                The Louisiana Department of Environmental Quality (LDEQ) is responsible for implementing
                                and enforcing natioruIJstandaJ.ds under the Act. This respoJlsibility includes: developing State
                                Implementation Plans (SIPs). writing permits, providing an adequatepublic participation process,
                                and conducting inspections to ensure that pennit requirerneJltsare met. EPA overseesthe State's
                                activities by reviev-ing and approving the various aspectsol'the permit and regulation
                                development program and by responding to citizen petition~;to state pennit decisions,

                                EPA hasreceived numerous complaints from citizens and eJ1vironmentalgroups alleging
                                excessiveair emissions in Louisiana and the lack of adequalepublic participation in fue
                                pennitting process. The goal ofilie OIG audit is to determUleif problems exi~ identifY.
.,/     '                       underlying causes,and determme what steps the State and/or the Region can take to correct them.

                                Objectives

                                The O1G's overall audit objective is to evaluate the successoffue State ofLouis1ana's air
                                permitting process and ~il1 answer the follov.ring three questions.

                                (1)         Does LDEQ allow for effective public participation in fue implementation ofilS air
                                            permitting process?

                                                                                                                                                       RECYCLE~~
                                                                                                                                                       -.,--~"..,..,".,



            ,           ~        """~._.,   ,."                                                        j   .,                                                             ..".._~"'
                                                                                                                                                                                      ""t'"      Ji';
                                                                                                                                                                                                        ,
APR-l/-1O1           1-J,3=     l-"Io!U[1,C;~A   U!LO   U",LL"'",         .!D,214f:;ci~f:;~~~                PAGE    3/5




             (2)      Does LDEQ write effective permits and regulations t() ensure that facilities comply with thc
                      State's and EPA 's exce~semissions policy related to ~missionsfrom upsets, malfunctions,
                      start-up/shut-do\\-n?
             (3)      Does Region 6 provide effective oversight ofLDEQ'~ air permit1ing program?

             ~
             The GIG's work ~ill be focu.->edonly on one state--Louisiana. The GIG will, however, gatJJer
             background data on other Statesand attempt to make some comparisons to other States in the
             Region as it relates to Regional oversight. The OIG \\ill inteniew EPA Region 6 officials and
             staff in Dallas, TX. and LDEQ staffin Baton Rouge, LA. 'rhe GIG .'Jill conduct work at the
             Region. LDEQ, and may conduct work in communities \'lithjn Louisiana. The GIG will reviev.'
             pertinent records or documents, which could, at a rninim\ml, include SIPs, pennit applications,
             permits. inspection reports of facilities in affected communities, and correspondencefiles. The
             OIG ..."ill conduct the engageJnentusing applicable goveI1l1nentaudit standards.

             This engagementaddressesEP A Strategic Goals 1 and 7-Specifically, under Goal 1, EPA stated
             that air toxics emissionsn.:rtion~ide from stationary and mc)bile sourcescombined \vill be
             reduced by 5% from 1999. Under Goal 7. EPA stated that they intended to Jmprove public
             accessto compliance and enforcement documents and data. particularly to high risk
             communities.

             Expected benefits of this engagementare improved relatiol1sbct\VeenEPA, LDEQ,
             communities. regulated facilities, and other stakeholders,3J1dimproved air quality for all
             Louisiana comn1unities. Long-term benefits would incl"l]d~'reduction of risk to Americans from
             cancer and other serious adverse health effects causedby aJrbometoxic emissions.

             The OIG will assessthe effectiveness ofLDEQ ~d EPA ill tl1eareasof public participation
             (objective 1), excessemiSSiOIIS (objective 2), and oversight (objective 3) by first comparing their
             efforts to the reqwrements of statutes.regulations, and pro\lsions of guidance. In addition" the
             OIG will look to go beyond strict compliance issues and Vi')11make recommendations. where
             necessary,to adopt additionaJpolicies, procedures. or reqw rementsto improve effectiveness in
             t;hesethree areas. The OIG will make recommendations to Region 6's Regional Administrator.
             Region 6 .";11 work ~-jth LDI~Q to implement those OIG recormnendarionsthat they deem will
             correct identified problems.

              QLG3taff on the Engagement

              The OIG Project Manager for this engagementis Randy Holthaus. Specific concerns or
              questions. should be addressedto Sandra Stafford for issuespertaining to public particil2ation.
              and to Les Partridge for issuespertaining to air permits. lbe following chart shows all OIG
              staff assignedto this engagenlent:




                                                                    2




             ~ '"'   '.,.m"'"
    ~r~-l(-~'         .~,~,   r~UM'~r~     Ul~     U~~~M~                    lU'~l~QQ~Q~O=                    ~~~~   ~/~

.

                       Staff Assigned                 Po~ition             Or ganization     Phone

                       RandyHolthaus                 ProjectManager        OIG-DaIIas        665-6620
                       SandraStafford                 Auditor              Ol(}-Dallas       665-3130

                      Les Partridge                   Auilitor             OIt}-Da11as       665-6627

                       SharonDa'v-is-Simpson          Auditor              OIG-DaIIas        665-6626

                       Gerr)'Snyder                  Engineer              OII.:J-Denver     303-312-6623
                       Bcrnard Stoll                  Engineer             OIlJ-HQ           202-260-4976



                Products

                During tJ1jsengagement,tlle OIG will produce the followin:~ products by these dates:



                                    Products                       Date
                                    Draft Report                      August 1(),2001

                                    Final Report                      September28,2001

                The OIG will also hold monthly update meetings with both Region 6 and LDEQ during May,
                June, and Jul)', and later months if necessary. These meetings will be held to ensure open and
                honest dialogue among all parties involved. These meeting~ should, at a minimum, include
                Region 6 representativesabove the staff level, but do not necessarilyhave to mclude senior
                program managers. The OIG \\ill contact the Region 6 Audit Liaison--Diane Taheri--in advance
                to schedulethe meetings so that all interested parties may a1tend. She will coordinate ~-ith Jole
                Luehrs from R6 and Michael Vince from LDEQ to schedull: thesemeetings. The OIG '-Vill
                provide an agenda for the meetings.

                To ensurethe successand timely completion of this engageJnent,R6-PD, and LDEQ agree to
                provide the OIG with the following:

                (1)    Relevant documents during the audit in a timely manDer.
                (2)    Conunentson the Draft report within 30 days.

                To ensure open and productive dialogue among all parties involved, the OIG agreesto provide
                R6-PD and LDEQ with the following:

                (1)     Relevant citations of statutes,regulations, and guidance the OIG used to review program            .
                        compliance and effectiveness. as they are identified or during monthly conference calls.
                (2)     Information on OIG work conducted in communities v.ritbin Louisiana and issues arising


                                                                  3
      APR-17-01        13,37    FROM,EPA     OIG   DALLAS                 ID:2146656589                      PAGE   5/5
.
 "-



                        from thatwork, unlesscitizenshave specificalJyrequ\:stedthe DIG to keep infomlation
                        confidential.

                  The;DIG, R6, and LDEQ agreeto establishand maintaina .;ollaborativeworking relationship
                  that resultsin an objectiveassessment of Loujsiana'sair pel1nittingprocessandthe Region's
                  oversight,andrecommendations    that improvethe program.


                  EPA~:!~~       ~~ted        Representative               OIG Representative


                  -~6~==~7!c
                  (Signature~ate)
                                                                (         l12'A~.J'
                                                                          ~~a~~
                                                                                 c?1£~'::::-CJI
                                                                                    (VVtr I~~=-
                  Carl Ed1un~Director                                      RandyP. Holthaus,ProjectManager
                  Region6                                                  Dallas BranchOffice
                  Multimedia Planning& PermittingDivision                  Centra]Audit Division, DIG



                  State of Louisiana Representative


                  (,,~.(f;               ~;        t/~1 h1\
                  (Signature/Date)
                  Bliss Higgjns, Assistant Secretal'y
                  Office ofEnmonmental Services
                  Louisiana Dept. ofEnvironIn(,,-ntal Quality
                  Stateof Louisiana




      -' ..
-"




                                                                4




                                                                                          ""'".,'"'"'""..~                -
                                                                                                                                                                                                                         ~=-~~::ItI1
                                                             Number         of    Exceedance                      Days                                                                                                   ~             (D    ,0


                                        0    C1I        0                   U1                       ~                              ~                                    ~                     ~                         u:~~~
                                                                                                                                                                                                                                       N~
                                ~                                                                                                                                                        "y                                            §~
                                ~                                                                        I\)                                                       m            "",!,,"~                                                     g
                                                                                                         0                                                         (,)          ",I co                                                       tI1


                                :                                          ~                                                                                          /!~                                                                    ~
                   I             Co)                                                                                                                              ,," ffi                                                                    ~
                    C            aI                                                                                                                         cm                                                                               g:
                   ~PI           ~                                                                                                                          '""       ,~
                                                                                                                                                                      v.                                                                     ~"
                                                                                                                                                                                                                                             (')
                                 aI                                                                                                                "~",,-"                                                                                   ~
                                 C1I                                                                                                               "'"" 0)                                                                                   ~
                                                   aI                                                                                              "'   -"                                                                                   ~"
                                                                                                                                                   "                                                                                          (')
                                 aI                                                                                                          ";"' U1                                                         g'                              .:a"
                   +             0)                     co                                                                                 "'"-..j                                                      0-                                    ~
                                                                                                                                    ",,"                                                                CD   0                               0"
                                 aI                                                                                    -" """",~                                                                        ~.   ~                                ::I
                   ~             -..j                        ::                                                        ~ "'"":t                                                                         CC   JJ                               'V
                   rg.                                                                                                              """,","                                                             ~     0                              ~
                    mal""",""                                                                                                                                  -"                                       <     C                              ~
                    -(,)
                    cn        aI                                      -"                                                                                 " ~
                                                                                                                                                         ""    0)                                       D)   ~
                                                                                                                                                                                                             ,~                               ~
                    C                                                                                                                                     "                                        ~-CD                                      =
                    m
                    -,
                              aI
                              co
                                                                                                                                                          "-"
                                                                                                                                                        , 0)
                                                                                                                                                                                                   =C_-
                                                                                                                                                                                                   cn CD
                                                                                                                                                                                                                                             e-
                                                                                                                                                                                                                                              +"
                   cg~                                                                                                                                                                             =:    ~-4
                                                                                                                                                                                                   "D)CD--I                                  ~
                   <                                                                                                                                        ,'"                                    In ~  D) -,                               -,.
                   PI            co                                                                                                                               "-"                              -' 0.    ~                                '0
                   c:      -<    0                                               -"                                                                               "," ~                            ~     0  (")                               0
                    CD -C1I
                       w                                                                                                                                           "--
                                                                                                                                                                   "                               C_N              ~                         ~
                           ~     co                                                                                                                               """'" m                          Co <      0     ..
                                                        co                                                                                        """~                                             a.CD~~
                                                                                                                                           "","""""    -S'                                               ~ CD m
                                 co                                                                                                  "".;:i"
                                                                                                                                  """""" ~
                                                                                                                                                                                                   ~<--ICC m        z
                    +           I\)                                                                                             """'"  ~                                                           " CD >< -,
                                                                                                                               ""      <0                                                          ..
                                                                                                                            """"                                                                    m        n     I\)
                                                                                                      """"""                                                                                       cg0
                                 cg                                                            -" """";"'"-"                                                                                       CDCD -CD
                    -t          '",-,                                                          I\)      (,)
                                                                                               -" """"' I\)                                                                                             'A
                                                                                                                                                                                                        VI   ,~
                    S?;.                                                                                 ,"_.                                                                                                0.
                    e!.                                                                                   i                                                                                             CC   D)
                                                                                                             ,          -"                                                                              -~
                    g?          ~                                                                            '"        (,)                                                                              -n
                   m                                                                                              ", C1I                                                                                <    CD
                   cn                                                                                              '"                                                                                   D)
                   ><            cg
                                 C1I                          -"                                                      ,""-"-0
                                                                                                                      ,," (,)                                                                           C
                   m                                          -"                                                      ,,'     <0                                                                        -    <A'
                                                                                                                                                                                                             -
                   ...,'~
                   PI                                                                                             "
                   (Q                                                                                          "" -"                              ,~              ,~                                         cn
                    m            co                                                                          "" Co)                          m u'                 u, ~        ~          ~
                                 0)                                                                          "c ~                            ~ ~                  ~ 0         III        CD
                   '-'                                                                                          "                            ~                    -- 0. ~                m
                    CD
                   cn                                                                                            ' ",                        ,-~CDO
                                                                                                                                                  ~               c: CD<C
                                                                                                                                                                        _0               n
                    -"           co                                                                                    '" -"                 3 CDcn PJ ~                                 Pi"
                   IC            -..j                                                                                 ""      (,)            CD                        --cn
                   ~                                                                                          "'"             <0                                         CD              cn
                   <                                                                                         ","
                   PI                                                                          -","~
                   c:            co                                                            N' I\)                                                                                    C
                    CD           aI                                                             ~~                                                                                       CD
                                                                                                 "
                                                                                                 "                                           I\)                                         cn
                                                                                                                                                                                         -,

                                                                                                '""-"                                        aI
                                 co                                                            "NI\)                                         ~~~~~
                                 co                                                             -""0)
                                                                                                  "c"
                                                                                                                                                0)0)-1\)
                                                                                                                                             § ~ ~ co ~
                                                                                                        ""                                   0. 0 0 0 0 --- -
                                 0                                                                     N'i,," c:;                            III I\) ~ ~ ~
                                 0                                                                     ~ ," C1I                              gO)O) ~ (,)
                                                                                                         "                                   <          0         0           0)         C"
                                                                                               -" i';-"                                      CD
                                 0                                                             l\i;f     I\)
                                 ~                                                             d         aI


                                        ~   0)     aI                 ~                  ~                              ~                          ~                                ~
                                        0   0      0                  0                  I\)                            ~                          0)                               al
                                                                      0                  0                              0                          0                                o
                                                                          Design Value, ppb




--"___"0""""""'.0"'_".0""""0'"                                                                                                                                                                                                              "~--""o.o
